No. 20-1374

In the Supreme Court of the United States
CVS PHARMACY, INC.; CAREMARK, L.L.C.; CAREMARK
CALIFORNIA SPECIALTY PHARMACY, L.L.C.,
PETITIONERS,
v.
JOHN DOE, ONE, ET AL., ON BEHALF OF THEMSELVES
AND ALL OTHERS SIMILARLY SITUATED,
RESPONDENTS.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX
LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com

GERALD S. FLANAGAN
CONSUMER WATCHDOG
6330 San Vicente Blvd.
Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog
.org

Counsel of Record for
Petitioners

Counsel of Record for
Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: MARCH 26, 2021
CERTIORARI GRANTED: JULY 2, 2021

TABLE OF CONTENTS
Corrected First Amended Class Action Complaint, No.
3:18-cv-01031-EMC, N.D. Cal., June 18, 2018 ............. 1

WHATLEY KALLAS, LLP
Joe R. Whatley, Jr. (admitted pro hac vice)
jwhatley@whatleykallas.com
Edith M. Kallas (admitted pro hac vice)
ekallas@whatleykallas.com
C. Nicholas Dorman (admitted pro hac vice)
ndorman@whatleykallas.com
1180 Avenue of the Americas, 20th Fl.
New York, NY 10036
Tel: (212) 447-7060
Fax: (800) 922-4851
Alan M. Mansfield (Of Counsel, SBN: 125998)
amansfield@whatleykallas.com
16870 W. Bernardo Dr., Suite 400
San Diego, CA 92127
Tel: (858) 674-6641
Fax: (855) 274-1888
CONSUMER WATCHDOG
Jerry Flanagan (SBN: 271272)
jerry@consumerwatchdog.org
Benjamin Powell (SBN: 311624)
ben@consumerwatchdog.org
6330 San Vincente Blvd., Suite 250
Los Angeles, CA 90048
Tel: (310) 392-0522
Fax: (310) 392-8874
Attorneys for Plaintiffs [additional counsel appear on
signature page]

(1)

2
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
JOHN DOE ONE,
JOHN DOE TWO,
JOHN DOE THREE,
JOHN DOE FOUR, and
JOHN DOE FIVE on
behalf of themselves and
all others similarly
situated,
Plaintiffs,
v.
CVS PHARMACY,
INC.; CAREMARK,
L.L.C.; CAREMARK
CALIFORNIA
SPECIALTY
PHARMACY, L.L.C.;
NATIONAL
RAILROAD
PASSENGER
CORPORATION d/b/a
AMTRAK; [Caption
continued on following
page.] LOWE’S
COMPANIES, INC.;
TIME WARNER, INC.;
and DOES 1-10,
inclusive,

Case No. 3:18-CV-1031EMC
CORRECTED FIRST
AMENDED CLASS
ACTION
COMPLAINT FOR:
(1) Violation of AntiDiscrimination
Provisions of Affordable
Care Act, 42 U.S.C.
§ 18116;
(2) Claim for Benefits Due
Under the Plans
Governed by ERISA, 29
U.S.C. § 1132(a)(1)(B);
(3) Claim for Breach of
Fiduciary Duties Under
ERISA, 29 U.S.C.
§ 1132(a)(2);
(4) Claim for Failure to
Provide Full and Fair
Review Required by
ERISA, 29 U.S.C.
§ 1132(a)(3);
(5) Violation of Americans
with Disabilities Act, § 42
U.S.C. § 12101, et seq.;

3
(6) Violation of California
Defendants.
Business & Professions
Code § 17200, et seq.;
(7) Violation of Unruh Civil
Rights Act, California
Civil Code § 51, et seq.;
and
(8) Declaratory Relief
Jury Trial Demanded On All
Claims So Triable
Plaintiffs, by and through the undersigned
attorneys, bring this action on behalf of themselves and all
others similarly situated against Defendants CVS
Pharmacy, Inc., Caremark, L.L.C., Caremark California
Specialty Pharmacy, L.L.C., (hereafter collectively “CVS
Caremark Defendants” or “CVS Caremark”), 1 National
Railroad Passenger Corporation (d/b/a “AMTRAK”),
Lowe’s Companies, Inc., Time Warner, Inc., and DOES 110, inclusive (hereafter collectively “Defendants”). 2
Plaintiffs allege the following on information and belief,
By separate agreement, previously named Defendants CVS
Health Corporation and Caremark Rx. L.L.C., listed in the caption of
this action. were dismissed from this action without prejudice
pursuant to Fed. R. Civ. Proc. Rules 15 and 41. They are no longer
named as Defendants in this action.
2
Plaintiffs bring this action with regard to health care plans
(hereinafter “health care plans” or “plans”) where the prescription
drug benefit of the plan is administered by CVS Caremark. Health
care plans include Employee Welfare Benefit Plans as that term is
defined in 29 U.S.C. § 1002(1)(A). As used herein, “subscriber” or
“enrollee” refers to an individual enrolled in a health care plan that is
administered, in part, by CVS Caremark.
1

4
which allegations are likely to have evidentiary support
after a reasonable opportunity for investigation and
discovery, except as to those allegations that pertain to
the named Plaintiffs, which are alleged on personal
knowledge:
NATURE OF THE ACTION
1.
Plaintiffs anonymously 3 bring this action to
challenge Defendants’ discriminatory business practices
targeting those persons whose prescription drug benefit
is administered by CVS Caremark and who are
prescribed specialty medications for the treatment or
prevention of HIV/AIDS (“HIV/AIDS Medications”).
Many enrollees in health plans where CVS Caremark
controls and administers the pharmacy benefits are told
they are required to obtain their HIV/AIDS Medications
from Caremark Specialty Pharmacy d/b/a CVS/Specialty
and/or Caremark California Specialty Pharmacy. L.L.C.
(“CSP”), a wholly-owned subsidiary of CVS Health
Corporation. CSP only delivers such medications by mail
order or mails them to a CVS Pharmacy as a drop
shipment location purely for pickup. This program
threatens HIV/AIDS patients’ health and privacy. If
HIV/AIDS patients in those plans do not obtain their
Due to the sensitive nature of this action, Plaintiffs have
chosen to file under fictitious names. See, e.g., Doe v. Kaweah Delta
Hosp., 2010 U.S. Dist. LEXIS 135808 (E.D. Cal., Dec. 22, 2010)
(AIDS/HIV patient permitted to proceed anonymously; Does I thru
XXIII v. Advanced Textile Corp. 214 F.3d 1058, 1068 (9th Cir. 2000)
(holding that one of the grounds for proceeding anonymously was that
anonymity was necessary “to preserve privacy in a matter of sensitive
and highly personal nature”)). Also Plaintiffs cannot publicly reveal
by whom they are employed for fear of retaliation and recrimination,
but would agree to enter into an appropriate Non-Disclosure
Agreement at the appropriate time.

3

5
HIV/AIDS Medications from CSP, then they must either
pay more out-of-pocket or pay full-price with no insurance
benefits whatsoever—thousands of dollars or more each
month—to purchase their medications at an in-network
community pharmacy where they can receive counseling
from a pharmacist and other services they may need to
stay alive (hereafter, the “Program”). CVS Caremark has
effectively denied and continues to deny Class Members
access to non-CVS pharmacies and pharmacists by
utilizing its discretion and incentivizing employers, such
as AMTRAK, Lowe’s, and Time Warner to make those
pharmacies and pharmacists “out-of-network” for
HIV/AIDS Medications, or not properly advising
enrollees they can elect not to use that Program.
2.
CVS Caremark does not merely administer
a prescription drug benefit plan design directed by the
sponsor of the plan such as, for example, an employer
sponsor providing a health plan that includes prescription
drug benefits provided by CVS Caremark to Class
Members. CVS Caremark offers financial inducements to
plan sponsors in order to incentivize plan sponsors to
enroll Class Members in prescription drug benefit plans
subject to the Program with no ability for Class Members
to exclude themselves from the Program (“opt-out”) and
obtain their medications at a community pharmacy of
their choice, or to claim they permit that ability to opt-out
but not properly advise consumers of that option. CVS
also utilizes its discretion to not consistently accept
rebates and discounts applicable to such medications,
increasing the cost of such medications to plan enrollees.
As such, CVS Caremark effectively controls and directs
the pharmacy benefits of such plans. Furthermore, as a
result of periodic plan renewals with plan sponsors, CVS

6
Caremark has an ongoing ability to alter plan terms and
the prescription drug benefits provided thereunder to
Class Members. To the extent CVS blames plan sponsors
for this decision and claims they are not responsible for
that election, companies such as AMTRAK, Lowe’s, and
Time Warner are also responsible for the acts and
practices at issue herein. Plaintiffs therefore also identify
AMTRAK, Lowe’s, and Time Warner as a Defendant
because of CVS’s claims that it is employers, not CVS,
who are responsible for the wrongdoing at issue.
3.
CVS Caremark has implemented the
Program and has not provided Class Members a right to
opt-out of the Program, or if and when there is such an
opt-out process, proper notice thereof. Each Plaintiff has
been subjected to the Program. Each Plaintiff has been
harmed or has been threatened with imminent harm,
and/or has been forced to expend additional monies as a
result of being forced to use the Program.
4.
Plaintiffs seek an order of this Court
declaring CVS Caremark’s and its plan sponsors’ conduct
to be in violation of federal and state law and enjoining
such continued violations of law. Plaintiffs also seek
damages, restitution and disgorgement based on out-ofpocket expenses Class Members either have or may incur
as a result of the Program or the profits generated by
Defendants’ conduct that violates the laws set forth below,
as appropriate for the particular causes of action set forth
below.
JURISDICTION AND VENUE
5.
This Court has jurisdiction over the parties
to this action. Several named Plaintiffs are residents of
California, Defendants transact business in California,

7
and the members of the Class are resident citizens of
California as well as other states where the Program has
been implemented.
6.
Jurisdiction over Defendants is also proper
because they have purposely availed themselves of the
privilege of conducting business activities in California
and because they currently maintain systematic and
continuous business contacts with this State and/or are
based here, and do business with thousands of affected
enrollees who are residents of this State.
7.

Venue is proper in this District under 28
U.S.C. section 1391 because Defendants maintain
substantial operations in this District; at least one of the
Plaintiffs and many Class Members either reside or did
business with Defendants in this District; Defendants
engaged in business in this District; a substantial part of
the events or omissions giving rise to the claims at issue
occurred in this District; and Defendants entered into
transactions and received substantial profits from
enrollees who reside in this District.
8.
This Court has subject matter jurisdiction
over this action. Federal question jurisdiction exists
based on the assertion of claims for violations of the
Affordable Care Act (“ACA”), Employee Retirement
Income Security Act (“ERISA”), and the Americans with
Disabilities Act (“ADA”). Plaintiffs also allege subject
matter jurisdiction for the state law claims based on the
Class Action Fairness Act (28 U.S.C. § 1332(d)), as the
parties are from different states and the amount in
controversy may be in excess of $5 million.
THE PARTIES
9.

On personal knowledge, JOHN DOE ONE

8
is a resident of Napa County, California. JOHN DOE
ONE has received his pharmacy benefits through CVS
Caremark since 2004 but until 2015 JOHN DOE ONE
could purchase his HIV/AIDS Medications from any innetwork pharmacy, including from non-CVS pharmacies,
with full insurance benefits. For over six years, JOHN
DOE ONE purchased his HIV/AIDS Medication from a
non-CVS pharmacy located in Napa, California and
developed a personal relationship with his pharmacist.
Since January 2015, the HIV/AIDS Medication
prescribed to JOHN DOE ONE is subject to the
Program. He has been required to pay full-price with no
insurance benefits to obtain his medication from the innetwork pharmacy of his choice or use the Program he
does not wish to use. His requests to opt-out of the
Program have been declined.
10.
On personal knowledge, JOHN DOE TWO
is a resident of Ventura County, California. For the past
20 years, JOHN DOE TWO has purchased his HIV/AIDS
Medications from Eddie’s Pharmacy, a local specialty
pharmacy located in Los Angeles, California that serves
HIV/AIDS patients. Since at least 2013, JOHN DOE
TWO has received his pharmacy benefits through CVS
Caremark but until January 1, 2016, JOHN DOE TWO
could purchase his HIV/AIDS Medications from any innetwork pharmacy, including from non-CVS pharmacies,
with full insurance benefits. Since January 2016, the
HIV/AIDS Medications prescribed for JOHN DOE TWO
have been subject to the Program. Beginning in January
2016 JOHN DOE TWO was required to obtain his
medications under the Program, putting his health and
privacy at risk. JOHN DOE TWO has contacted CVS
Caremark on numerous occasions in an attempt to opt-out

9
of the Program, including requests in writing. However,
JOHN DOE TWO’s requests to opt-out of the Program
have consistently been denied.
11.
On personal knowledge, JOHN DOE
THREE is a resident of Los Angeles County, California.
For the past 15 years, JOHN DOE THREE has
purchased his HIV/AIDS Medications from a community
pharmacy located in Los Angeles, California. Since at
least 2013, JOHN DOE THREE has received his
pharmacy benefits through CVS Caremark, but until 2016
JOHN DOE THREE could purchase his HIV/AIDS
Medications from any in-network pharmacy, including
from non-CVS pharmacies with full insurance benefits.
As of January 2016, the HIV/AIDS Medications
prescribed for JOHN DOE THREE are subject to the
Program. JOHN DOE THREE has contacted his
employer’s health insurance carrier in an attempt to optout of the Program. However, JOHN DOE THREE’s
requests to opt-out of the Program have been denied. He
is now required to utilize the Program or pay full-price
with no insurance benefits to obtain his medications from
his community pharmacy, and he can no longer use the
specialty pharmacist of his choice. He has been forced to
use the Program he does not wish to use.
12.
On personal knowledge, JOHN DOE
FOUR is a resident of Los Angeles County, California.
For the past eight years, JOHN DOE FOUR has
purchased his HIV/AIDS Medications from a community
pharmacy located in Los Angeles, California. Since at
least 2013, JOHN DOE FOUR has received his pharmacy
benefits through CVS Caremark, but until 2016 JOHN
DOE FOUR could purchase his HIV/AIDS Medications
from any in-network pharmacy, including from non-CVS

10
pharmacies with full insurance benefits. As of January
2016, the HIV/AIDS Medications prescribed for JOHN
DOE FOUR were subject to the Program. He was
required to utilize the Program or pay full-price with no
insurance benefits to obtain his medications from his
community pharmacy, and could no longer use the
specialty pharmacist of his choice.
13.
On personal knowledge, JOHN DOE FIVE
is a resident of Midland, Texas. JOHN DOE FIVE has
received his pharmacy benefits through CVS Caremark
since being on an employer plan, but until January 2015,
JOHN DOE FIVE could purchase his HIV/AIDS
Medications from any in-network pharmacy, including
from non-CVS pharmacies, with full insurance benefits.
Until 2015, JOHN DOE FIVE had purchased his
HIV/AIDS Medications from a community pharmacy
located in Midland, Texas. As of January 2015, however,
the HIV/AIDS Medications prescribed for JOHN DOE
FIVE were subject to the Program. He was required to
utilize the Program or pay full-price with no insurance
benefits to obtain his medications from his community
pharmacy, and as a result could no longer use the
specialty pharmacist of his choice.
14.
Defendants
CVS
Pharmacy,
Inc.,
Caremark, L.L.C., and Caremark California Specialty
Pharmacy, L.L.C., are either domestic or foreign
corporations or limited liability companies organized
under the laws of this State or the States of Rhode Island
or Delaware, with their principal places of business and
registered agents for service of process being located in
at least those states, and/or are registered to do business
in this State or are transacting the business of
administering pharmacy benefits for health plans and

11
filling specialty prescription requests made in and from
this State. The various CVS/Caremark Defendants act as
agents of one another and operate as a single entity for
purposes of administering pharmacy benefits and
providing prescription drugs to health plans and health
plan members.
15.
Defendant National Railroad Passenger
Corporation (d/b/a AMTRAK) is a for-profit corporation
with its principal place of business located in Washington,
D.C. AMTRAK is the self-insured plan sponsor for one of
the Plaintiffs. Defendant AMTRAK is registered to do
business in this State or is transacting the business of
sponsoring health plans for employees located in this
State. Plaintiffs are only bringing this claim against
AMTRAK as to Class Members who are members of an
AMTRAK sponsored health plan, and because CVS
claims that AMTRAK is solely responsible for the
violations of law at issue herein as to such persons.
16.
Defendant Lowe’s Companies, Inc.
(“Lowe’s”), is a for-profit corporation with its principal
place of business located in Mooresville, NC. Defendant
Lowe’s is registered to do business in this State or is
transacting the business of sponsoring health plans for
employees located in this State. Defendant Lowe’s
provides health benefits to employees and their
dependents, including one of the Plaintiffs, who is not
specifically identified out of privacy concerns. Plaintiffs
are only bringing this claim against Lowe’s as to Class
Members who are members of a Lowe’s sponsored health
plan.
17.
Defendant Time Warner, Inc. (“Time
Warner”), is a for-profit corporation with its principal
place of business in New York, NY. Defendant Time

12
Warner is registered to do business in this State or is
transacting the business of sponsoring health plans for
employees located in this State. Defendant Time Warner
provides health benefits to employees and their
dependents, including one of the Plaintiffs, who is not
specifically identified out of privacy concerns. Plaintiffs
are only bringing this claim against Time Warner as to
Class Members who are members of a Time Warner
sponsored health plan.
18.
The true names, roles and/or capacities of
Defendants named as DOES 1 through 10, inclusive, are
currently unknown to Plaintiffs and, therefore, are named
as Defendants under fictitious names as permitted by the
rules of this Court. Plaintiffs will identify their true
identities and their involvement in the wrongdoing at
issue if and when they become known.
19.
Defendants’ conduct described herein was
undertaken or authorized by Defendants’ officers or
managing agents who were responsible for supervision
and operations decisions relating to the Program. The
described conduct of said managing agents and
individuals was therefore undertaken on behalf of
Defendants. Defendants had advance knowledge of the
actions and conduct of said individuals whose actions and
conduct were ratified, authorized, and approved by such
managing agents. By engaging in the conduct described
herein, Defendants have reached agreements as to each
Plaintiff’s and Class Member’s health plan requiring
Class Members to use the wholly-owned CVS Health
Corporation’s specialty pharmacy subsidiary under the
Program, providing members with no realistic alternative
or clear notice of their option not to do so, to the exclusion
of their trusted community pharmacy and/or specialty

13
pharmacist. As a result of such agreements, Defendants
conspired and aided and abetted each other in violating
the laws set forth herein, which conduct is on-going.
PLAINTIFFS’ FACTUAL ALLEGATIONS
JOHN DOE ONE
20.
On personal knowledge, JOHN DOE ONE
has been HIV positive since approximately August 1998.
JOHN DOE ONE receives health insurance from his
employer. The pharmacy benefit for his health plan is
administered by CVS Caremark. JOHN DOE ONE
currently takes one HIV/AIDS Medication subject to the
Program, Triumeq.
21.
On January 19, 2015, JOHN DOE ONE
received a phone call from his local pharmacy. His
pharmacist informed him that his prescriptions were no
longer approved at the pharmacy. JOHN DOE ONE
called CVS Caremark and spoke to a CVS Caremark
representative, who informed him that he must obtain his
prescriptions under the Program or pay full-price for his
medications.
A month’s supply of his HIV/AIDS
Medication costs more than $2,000. JOHN DOE ONE
explains, “I received no written notice to prepare for this
impending policy change. I had to scramble into action
since I only had a seven-day supply remaining.” Running
low on his HIV/AIDS Medications, JOHN DOE ONE had
no choice but to enroll in the Program.
22.
That same evening, JOHN DOE ONE
called CVS Caremark and spoke to a representative.
JOHN DOE ONE demanded to get his medications from
his local pharmacy. The CVS Caremark representative
reiterated that he had to get his prescriptions through the
Program if he wanted his medication or else pay out-of-

14
pocket.
23.
JOHN DOE ONE has, on several occasions,
expressly requested to opt-out of the Program. JOHN
DOE ONE has emailed CVS Caremark and requested an
explanation on “why [his] medications were halted at the
retail pharmacy.” In response, CVS Caremark said that
his medications must be filled by CVS Caremark’s
Specialty Pharmacy Program.
24.
On January 21, 2015, JOHN DOE ONE
received his first shipment of Triumeq. When JOHN
DOE ONE returned home he found his 90-day supply of
HIV/AIDS Medication baking in the afternoon sun.
Storage at high temperatures can quickly degrade the
potency and stability of many medications.
25.
After the disastrous experience with his
first mail-order shipment, JOHN DOE ONE has picked
up his HIV/AIDS Medication at a CVS Pharmacy. CVS
Caremark mails the medication to a CVS Pharmacy, but
only as a drop shipment location purely for pickup, with
no advice provided by a pharmacist. JOHN DOE ONE
has never received or been offered a consultation with a
pharmacist regarding his HIV/AIDS Medication during
his pickups. Unlike JOHN DOE ONE’s community
pharmacy, which is now considered “out-of-network,”
CVS Caremark does not provide reminders when his
prescription needs to be renewed. Furthermore, CVS
Caremark does not coordinate with the AIDS Drug
Assistance Program (“ADAP”), a government program
that provides co-pay assistance for HIV/AIDS
Medications. Now, in order to receive assistance from
ADAP, JOHN DOE ONE must “pay the co-pay first at
CVS Pharmacy, wait for the invoice, and then submit the
claim to ADAP for reimbursement.” JOHN DOE ONE

15
“never received the invoice for October 2015—despite
calling and asking for it—and missed ADAP’s 60-day
period in which to file for reimbursement.” JOHN DOE
ONE’s out-of-pocket loss for October 2015 alone was
$60.00.
26.
To make matters worse, JOHN DOE
ONE’s HIV/AIDS Medication were filled by CVS
Caremark and his non-HIV/AIDS Medications, including
Bupropion, an antidepressant, are filled by his local
pharmacy. JOHN DOE ONE has to manage his
prescriptions and spend time going between his local
pharmacy and CVS Caremark. CVS Caremark does not
have a full and accurate record of all of the medications
JOHN DOE ONE is taking and cannot anticipate or warn
against potential adverse drug interactions, which are
common with HIV/AIDS Medications.
27.
On March 30, 2016, JOHN DOE ONE
submitted, via certified mail, a letter to both his employer
and CVS Caremark formally requesting that he be
allowed to opt-out of the Program. JOHN DOE ONE
received a letter dated April 4, 2016 from CVS Caremark
denying his request and directing him to file a second level
appeal. On May 17, 2016, JOHN DOE ONE filed the
second level appeal as directed. In a letter from CVS
Caremark dated May 20, 2016, CVS Caremark informed
JOHN DOE ONE that CVS Caremark had made a “final
determination” denying his opt-out request. JOHN DOE
ONE followed the appeal process as set forth in his plan
documents.
28.
The Program raises both practical and
privacy concerns. JOHN DOE ONE is away from home
several days a week. JOHN DOE ONE must pick up his
medications before he leaves to ensure that he does not

16
run out of his medications while he is away. If his
medications were delivered to his home, they would be left
on his doorstep.
29.
JOHN DOE ONE has built a very close
relationship with his local pharmacy. JOHN DOE ONE’s
local pharmacy coordinated his ADAP payments and
reminded him when his medications were ready for
pickup. JOHN DOE ONE’s local pharmacy can also
provide essential counseling services regarding his
HIV/AIDS Medication. In comparison, when JOHN
DOE ONE called CVS Caremark for counseling services,
he was transferred multiple times and told to call back.
30.
JOHN DOE ONE’s present and on-going
experience with CVS Caremark’s Program has
dramatically increased his stress. Stress plays a part in
undermining the human immune system and is
detrimental to people with chronic illness. In the words of
JOHN DOE ONE, the Program has resulted in, as JOHN
DOE ONE describes it, a “fractured and splintered
medication retrieval” system that serves only to add
additional stress to JOHN DOE ONE’s life.
JOHN DOE TWO
31.
On personal knowledge, JOHN DOE TWO
has been HIV positive since 1996. In addition, JOHN
DOE TWO has several chronic health conditions,
including congestive heart failure and stage four kidney
failure. JOHN DOE TWO receives health insurance
through his husband’s employer and the pharmacy benefit
for his health plan is administered by CVS Caremark.
JOHN DOE TWO currently takes three HIV/AIDS
Medications (Epivir, Selzentry, and Tivicay) that are
subject to the Program.

17
32.
For approximately four years prior to the
implementation of the Program, CVS Caremark
administered JOHN DOE TWO’s pharmacy benefits.
Throughout this period, JOHN DOE TWO was able to
obtain his HIV/AIDS Medications from a retail specialty
pharmacy that specializes in serving HIV/AIDS patients.
In October 2015, JOHN DOE TWO’s husband received a
letter from CVS Caremark that stated that he was
required to enroll in the Program beginning January 1,
2016. The letter provided “effective January 1 [2016],”
members “taking a long-term maintenance medication …
must choose to receive [their] 90-day supply by mail or
pick them up at a retail CVS/pharmacy.” The letter also
stated that the plan “will allow two 30-day fills of a longterm medication” at a local pharmacy. JOHN DOE TWO
did not receive the same communication from CVS
Caremark. The following month, in November 2015,
JOHN DOE TWO received a letter from CVS Caremark,
which stated that he had “reached [his] plan limit for
filling 30-day supplies at a retail pharmacy” and would
have to pay the full cost of his medications if he did not
receive 90-day supplies of his medications through the
Program.
33.
Beginning in January 2016, JOHN DOE
TWO had to obtain his HIV/AIDS Medications under the
Program but does not want to pick up his medications
from a CVS pharmacy due to significant privacy concerns.
At his local specialty pharmacy, JOHN DOE TWO can
enter a private screened section of the pharmacy to
receive a consultation and ask questions. In comparison,
nearby CVS pharmacies do not have a private area for
picking up medications and consultations. JOHN DOE
TWO explains: “At my retail specialty pharmacy, they

18
have a little alcove for privacy. I can take my medications
out and match it with a list I have of all my drugs. I can
meet with my pharmacist and explain any changes I have
felt and ask any questions I have. At CVS, I am within
hearing distance of everyone waiting in line, including
many people who do not have HIV/AIDS. I can hear other
patients’ questions and the pharmacists’ answer. I am
concerned with other people finding out about my HIV
positive status.”
34.
As a result, JOHN DOE TWO has had no
choice but to pick up his prescriptions from the closest
CVS retail pharmacy that offers a private consultation
room, which is 50 miles from his home round-trip. As
JOHN DOE TWO cannot drive himself, his husband has
been required to drive him to the pharmacy as well as to
assist in carrying out JOHN DOE TWO’s 21–24
prescriptions.
Each time JOHN DOE TWO has
attempted to pick up his prescriptions from the retail CVS
location, JOHN DOE TWO has encountered problems
that require a return to the store, including missing and
inadequate amounts of medication (e.g., only 60-days’
worth of HIV/AIDS Medication for a 90-day prescription).
In fact, JOHN DOE TWO was informed by the retail
pharmacist that he does not even open the specialty
medication shipments when they come in, let alone verify
that the shipment is correct or whether there is any new
information that should be passed along to JOHN DOE
TWO. According to JOHN DOE TWO, “every refill
involves a new surprise in trying to learn their system.”
35.
JOHN DOE TWO requested to have a
specific representative appointed as a contact at the
beginning of his experience, but the “patient advocate”
system employed by CVS Caremark has only added

19
another layer of bureaucracy that has resulted in more
confusion and issues. On multiple occasions, JOHN DOE
TWO’s patient advocate has either been too busy or
unavailable to assist him.
36.
JOHN DOE TWO takes many medications
every day and wants to obtain all those medications from
his local community pharmacy so that his local pharmacist
can help coordinate his medications and monitor for
adverse drug interactions and possible side effects.
JOHN DOE TWO has come to rely on the watchful eye of
his specialty pharmacist. For example, following a
hospital stay relating to JOHN DOE TWO’s kidney
problems, the discharging physician prescribed Bactrim
DS. Because JOHN DOE TWO’s specialty pharmacist is
familiar with JOHN DOE TWO’s medical history,
including his kidney failure, the pharmacist advised
JOHN DOE TWO that the dosage strength of the
prescribed Bactrim DS was incorrect. JOHN DOE TWO
called his nephrologist, who agreed with the pharmacist’s
conclusion.
37.
JOHN DOE TWO was previously required
to obtain his medications by mail-order when his
prescription drug benefit was administered by Express
Scripts, Inc. The experience was disastrous. After
multiple delivery and privacy problems, JOHN DOE
TWO was allowed to opt-out of the mail-order program
and return to his local specialty pharmacy.
38.
JOHN DOE TWO has built a very close
relationship with his local specialty pharmacy. JOHN
DOE TWO explains: “My pharmacist knows me, my
medical conditions and history, and is immediately
available for consultation. He coordinates my monthly
refills so that all my prescriptions, some of which require

20
refrigeration, are available for pick-up at one time.”
39.
In comparison, the CVS Caremark
representatives JOHN DOE TWO has dealt with appear
to have no specialized knowledge about HIV/AIDS
Medications or the concerns of HIV patients, resulting in
the reduction or effective elimination of such benefits.
The individuals who work in the CVS Caremark mailorder call centers and interact with members who need
these medications have no specialized training as to
HIV/AIDS Medications, and it is clear from JOHN DOE’s
interactions with staff members that both the specialty
pharmacies and retail pharmacies are woefully
understaffed, overworked, and inexperienced. The retail
pharmacist JOHN DOE TWO has been forced to receive
his medications from has said, “I studied HIV medicine in
school but I don’t have any current experience.”
40.
JOHN DOE TWO has expended
substantial resources attempting to resolve the issues
raised herein, spending hours on the phone with CVS
Caremark representatives. JOHN DOE TWO has, on
several occasions, expressly requested to opt-out of the
Program with CVS Caremark and his husband’s former
employer. Between October 2015 (when his husband
received the first letter referenced above) and March
2016, JOHN DOE TWO called CVS Caremark more than
20 times in an attempt to opt-out of the Program. A CVS
Caremark representative named Lisa informed him that
she would try to appeal on his behalf. However, her
supervisor denied the appeal. In addition, on January 11,
2016 and February 28, 2016, JOHN DOE TWO submitted
letters to CVS Caremark requesting to opt-out of the
Program. Those requests were either ignored or denied.
Prior to filing this action, he contacted his employer

21
benefits representative and CVS Caremark once again to
opt-out of the Program, and once again was subjected to
a 40 minute call. The employer representative informed
JOHN DOE TWO that only CVS Caremark could decide
whether to grant such requests. The CVS Caremark
representative he then spoke with stated there was no
provision in JOHN DOE TWO’s health plan allowing him
to opt-out of the Program, nor would there be for 2018,
and confirmed this policy applied to specialty HIV/AIDS
Medications.
Furthermore, the CVS Caremark
representative stated that since JOHN DOE TWO
obtained HIV/AIDS Medications under the Program, all
of his medications—including non-HIV specialty
medications and non-specialty medications not subject to
the Program—must also be obtained through the
Program. After detailing his experience of obtaining his
prescriptions through the Program the CVS Caremark
representative stated she genuinely wished that she could
do something to help, but said there was nothing she could
do. JOHN DOE TWO sums up the conversation this way:
“I have had so many conversations with CVS Caremark
personnel who recognize the limitations of the Program
and are supportive about my desire to go to the
pharmacist who knows me and my medications. [The CVS
representative] actually said other employees ask her
after nine years in her position, ‘how do you stand it?’”
41.
On April 1, 2016, JOHN DOE TWO
submitted, via certified mail, a letter to both his husband’s
former employer and CVS Caremark requesting, once
again, that he be allowed to opt-out of the Program.
JOHN DOE TWO received a letter dated April 4, 2016
from CVS Caremark denying his request and directing
him to file a second level appeal. On May 11, 2016, JOHN

22
DOE TWO filed the second level appeal as directed. In a
letter from CVS Caremark dated May 16, 2016, CVS
Caremark informed JOHN DOE ONE that it had made a
“final determination” denying his opt-out request. JOHN
DOE TWO followed the appeal process as set forth in his
plan documents. Ultimately, CVS Caremark has denied
all of his opt-out requests and informed him that all
HIV/AIDS Medications must be obtained under the
Program.
42.
JOHN DOE TWO’s present and on-going
experience with CVS Caremark’s Program has
dramatically increased his stress. Stress plays a part in
undermining the human immune system and is
detrimental to people with chronic illnesses. JOHN DOE
TWO’s physician has told him to do everything he can to
reduce stress in his life, especially as JOHN DOE TWO
has had multiple heart attacks, strokes, open heart
surgery and has had numerous cardiac stents placed to
keep him alive. As a result of the stress from the
Program, JOHN DOE TWO has received a prescription
for Wellbutrin, an antidepressant medication.
JOHN DOE THREE
43.
On personal knowledge, JOHN DOE
THREE has been taking HIV/AIDS Medications for 15
years. JOHN DOE THREE is insured through his
former employer’s health insurance carrier, Anthem Blue
Cross and Blue Shield, and the pharmacy benefit for his
health plan is administered by CVS Caremark, which has
been the pharmacy benefit provider for his former
employer since at least 2013. He had previously been able
to obtain his three HIV/AIDS Medications (Intelence,
Isentress and Reyataz) from his neighborhood specialty
pharmacy. In December 2015, JOHN DOE THREE

23
received a communication from CVS Caremark that he
would have to enroll in the Program in 2016, but that he
could receive an initial order and two refills at any
pharmacy—an amount of medication equal to a threemonth supply. However, when he went to his local
pharmacy in Los Angeles, California on January 8, 2016
to refill a prescription for his HIV/AIDS Medications, a
CVS Caremark representative informed JOHN DOES
THREE’s neighborhood specialty pharmacy that CVS
Caremark would not process payment, and that JOHN
DOE THREE would have to immediately enroll in the
Program in order to obtain his medications. JOHN DOE
THREE called both his former employer and CVS
Caremark. After numerous calls, CVS Caremark gave
him a one-time exception and allowed his pharmacy to fill
his HIV/AIDS Medications, but only for January 2016.
CVS Caremark insists that prescriptions for all specialty
medications must be filled through the Program and that
it no longer permits the three-month grace period it had
allowed in the past.
44.
JOHN DOE THREE was also informed
that CVS Caremark’s Program now requires JOHN DOE
THREE to order a single month of medication at a time,
requiring JOHN DOE THREE to incur additional out-ofpocket costs on a monthly basis and increasing the
financial burden imposed by the Program.
45.
JOHN DOE THREE has, on several
occasions, expressly requested to opt-out of the Program.
His requests and appeal were denied on the basis that
there has been a change to his former employer’s benefit
plan.
On March 24, 2016, JOHN DOE THREE
submitted, via certified mail, a letter to both his former
employer and CVS Caremark to formally request that he

24
be allowed to opt-out of the Program; he received no
response from either. JOHN DOE THREE followed the
appeal process as set forth in his plan documents, to no
avail. Before this lawsuit was filed, JOHN DOE THREE
contacted his former employer once again and asked to
opt-out of the Program so that he can obtain his
HIV/AIDS Medications at a community pharmacy of his
choice. The benefits manager referred him to CVS
Caremark. The person he spoke to at CVS Caremark said
there is no such option. As JOHN DOE THREE says, “I
persisted and asked her if there was any change during
the past year so I could get up to date information on my
plan, and she said there was none and directed me to my
employer’s Benefits ‘welcome package’ I was supposed to
receive in the mail.”
46.
JOHN DOE THREE describes his
experience with CVS Caremark’s Program as an “odious
burden” and states that the entire process is “unreliable
and clumsy.” For example, on one occasion when JOHN
DOE THREE used CVS Caremark’s Program to obtain
his medication, the package he received only contained
part of his prescription. When JOHN DOE THREE
called CVS Caremark to inform them of the mistake, the
CVS Caremark customer service representative insisted
that the order was complete and told JOHN DOE
THREE that he would have to file a police report so the
police could determine whether the medications had been
stolen. The next day, the remainder of the incomplete
order arrived. The lengthy phone calls and additional
stress to JOHN DOE THREE would have been avoided
entirely had he not been subject to the Program. JOHN
DOE THREE also believes that the Program does not
have adequate systems in place to communicate with his

25
doctor with regard to the timing of prescription refills,
resulting in additional calls to the doctor and stress and
concern to JOHN DOE THREE regarding whether he
will receive his prescriptions in a timely manner.
Furthermore, because the neighborhood in which JOHN
DOE THREE resides has in fact recently seen theft of
mail parcels, JOHN DOE THREE must remain at home
for the entire day on which a delivery of his medication is
to occur in order to guard against theft, resulting in
missed doctor appointments that are critical to the
maintenance of JOHN DOE THREE’s condition.
47.
JOHN DOE THREE has built a very close
relationship with his local pharmacist, who is
knowledgeable and understands the subtle nuances of
HIV/AIDS Medications.
He has used his local
neighborhood pharmacy since 1990. His local pharmacy
is very highly regarded in the community and was the first
pharmacy in Los Angeles to specialize in HIV patient
care. On more than one occasion, when JOHN DOE
THREE was particularly ill, he has called his local
pharmacist, who has in turn called JOHN DOE THREE’s
doctor to obtain the necessary prescription from the
doctor. JOHN DOE THREE and others depend on these
types of longstanding relationships with local pharmacists
to maximize the benefits of HIV/AIDS Medications and to
treat the complex and ever-changing needs of HIV/AIDS
patients.
48.
In comparison, the CVS Caremark
representatives JOHN DOE THREE has dealt with
appear to have no specialized knowledge about HIV/AIDS
Medications or the concerns of HIV patients, resulting in
the reduction or effective elimination of such benefits.
CVS Caremark is also unwilling to work to provide him

26
the manufacturer rebates he would obtain by continuing
to work with his local pharmacist, thus increasing his
payments by an estimated $400 per month, which on his
fixed income he cannot afford for an extended period.
JOHN DOE THREE has also been forced to take the
additional step of enrolling in Medicare Part D as a “backup” to assure that he will have timely and necessary
access to his HIV/AIDS Medications. This additional
coverage, which should not be necessary, will cost JOHN
DOE THREE thousands of dollars in premiums and
other costs throughout the year. Further, JOHN DOE
THREE shares the same financial concerns as JOHN
DOE ONE and JOHN DOE TWO in terms of the impact
of the Program on the affordability of his medications.
49.
JOHN DOE THREE’s present and ongoing experience with CVS Caremark’s Program has
dramatically increased his stress. Stress plays a part in
undermining the human immune system and is
detrimental to people with chronic illness. Because he is
being forced into the mail order Program, JOHN DOE
THREE has sought to renew his prescription for anxiety
medication, at additional personal cost.
JOHN DOE FOUR
50.
On personal knowledge, JOHN DOE
FOUR has been taking HIV/AIDS Medications for more
than 10 years. JOHN DOE FOUR was insured through
the health plan of his spouse, JOHN DOE THREE. The
pharmacy benefit for that health plan is administered by
CVS Caremark, which has been the pharmacy benefit
provider for the plan since at least 2013. He had
previously been able to obtain his various approved
HIV/AIDS Medications from his neighborhood specialty
pharmacy. In December 2015, JOHN DOE FOUR

27
received a communication from CVS Caremark that he
would have to enroll in the Program in 2016.
51.
JOHN DOE FOUR has had numerous
issues with CVS Caremark’s Program. On several
occasions, deliveries of critical medications have not
arrived on time and/or have not arrived by the date
specified by CVS Caremark for delivery. Because a
signature is required for delivery of the medications he
receives, he must take off work for the entire day in order
to receive these deliveries. As a result, even deliveries
that arrive on time require him to forgo a day’s wages—
approximately $200. When deliveries of his medications
do not arrive on the date projected by CVS Caremark, as
often occurs, he is forced to forgo multiple days’ wages
simply to obtain medications that are critical to his health.
Of course, late delivery of his medications also jeopardizes
his health, which deteriorates quickly without his
medications, and subjects him to the risk of developing
increased drug resistance as a result of missed doses.
Accompanying these injuries to his economic and physical
well-being comes a feeling of despondence and lack of
control over his own health, which is detrimental to his
psychological well-being. The unnecessary challenges
and sacrifices that CVS Caremark’s Program imposes on
JOHN DOE FOUR result in stress and obstacles to
medication compliance.
52.
Further, JOHN DOE FOUR has received
and been billed for, without his consent, deliveries of
medications that were not set for automatic refill,
including medications that he, in consultation with his
physician, had discontinued. In such instances, his credit
card has been charged for delivery of these medications
without his consent. With his limited income, such

28
unanticipated and unauthorized charges cause him
significant financial stress.
53.
JOHN DOE FOUR was also informed that
CVS Caremark’s Program now requires JOHN DOE
FOUR to order a single month of medication at a time,
requiring JOHN DOE FOUR to incur additional out-ofpocket costs on a monthly basis and increasing the
financial burden imposed by the Program.
54.
JOHN DOE FOUR has built a very close
relationship with his local pharmacist, who is
knowledgeable and understands the subtle nuances of
HIV/AIDS Medications.
He has used his local
neighborhood pharmacy since 2010. His local pharmacy
is very highly regarded in the community and was the first
pharmacy in Los Angeles to specialize in HIV patient
care. On more than one occasion, he has called his local
pharmacist who has in turn called JOHN DOE FOUR’s
doctor to obtain the necessary prescription from the
doctor. JOHN DOE FOUR and others depend on these
types of longstanding relationships with local pharmacists
to maximize the benefits of HIV/AIDS Medications and to
treat the complex and ever-changing needs of HIV/AIDS
patients.
55.
In comparison, the CVS Caremark
representatives JOHN DOE FOUR has dealt with appear
to have no specialized knowledge about HIV/AIDS
Medications or the concerns of HIV patients, resulting in
the reduction or effective elimination of such benefits.
CVS Caremark is also unwilling to work to provide him
the manufacturer rebates he would obtain by continuing
to work with his local pharmacist, thus increasing his
payments by an estimated $200 per month, which, at his
income level, he cannot afford for an extended period.

29
Further, JOHN DOE FOUR shares the same financial
concerns as the other Plaintiffs in terms of the impact of
the Program on the affordability of his specialty
medications.
Specifically, CVS Caremark routinely
delays delivery of JOHN DOE FOUR’s medications on
the basis that he has not satisfied his cost-share
obligation. Each time, JOHN DOE FOUR is required to
contact CVS Caremark, often requiring a substantial
investment of time spent on the phone, in order to remind
them of his participation in ADAP and provide them the
information related to that program yet again. The failure
of CVS Caremark’s Program to retain and apply this
information from one prescription fill to the next results
in increased stress and delayed treatment for JOHN
DOE FOUR. In comparison, JOHN DOE FOUR’s
neighborhood specialty pharmacy coordinated ADAP
coverage for his prescription medications without
intervention, insistence, or reminder on the part of JOHN
DOE FOUR.
56.
Furthermore, because the neighborhood in
which JOHN DOE FOUR resides has in fact recently
seen theft of mail parcels, JOHN DOE FOUR must
remain at home for the entire day on which a delivery of
his medication is to occur in order to guard against theft,
resulting in missed doctor appointments that are critical
to the maintenance of JOHN DOE THREE’s condition.
57.
JOHN DOE FOUR’s present and on-going
experience with CVS Caremark’s Program has
dramatically increased his stress. Stress plays a part in
undermining the human immune system and is
detrimental to people with chronic illness. Because he was
forced into using the Program, JOHN DOE FOUR has
sought to renew his prescription for anxiety medication,

30
at additional personal cost.
JOHN DOE FIVE
58.
On personal knowledge, JOHN DOE FIVE
has been taking the HIV/AIDS Medications Descovy and
Prezcobix, having previously taken Truvada, Norvir and
Prezista. JOHN DOE FIVE is insured through his
spouse’s employer health plan. The pharmacy benefit for
that health plan is administered by CVS Caremark, which
has been the pharmacy benefit provider for the plan since
at least 2013. He had previously been able to obtain his
various approved HIV/AIDS Medications from his
neighborhood specialty pharmacy. In late 2014, JOHN
DOE FIVE received a communication from CVS
Caremark that he would have to enroll in the Program in
early 2015.
59.
JOHN DOE FIVE has had numerous
issues with CVS Caremark’s Program. On several
occasions, deliveries of critical medications have not
arrived on time and/or have not arrived by the date
specified by CVS Caremark for delivery.
60.
In one instance in which JOHN DOE FIVE
did not receive his medication as ordered through the CVS
Specialty website, he had to speak to several CVS
Caremark customer service representatives.
After
several hours of being transferred from one
representative to another, he was told that there was no
record of his order despite his having received an email
confirmation of that same order. To resolve this matter,
JOHN DOE FIVE had to escalate his grievance to the
CVS Office of the President. Although that particular
circumstance was resolved by CVS Caremark sending a
same day courier with his HIV/AIDS medications from

31
Dallas, Texas, that same issue has occurred on several
more occasions without a similar resolution, and has
required him to expend resources and not be available to
work so he could be available on the schedule of that
courier. Many of the resources he needs to access on daily
basis are only available during traditional business hours,
which are also the only hours CVS Specialty seems to
keep in terms of being able to answer his specific
inquiries.
61.
On another occasion, due to another failure
by CVS Caremark to deliver medications as originally
ordered combined with inclement weather, JOHN DOE
FIVE requested to fill his prescriptions at a local CVS
pharmacy. Despite the fact this shipment had come about
because his original order had again been lost by CVS
Caremark, and having email confirmation of that lost
order from CVS Caremark, he was told that the weather
was considered an Act of God, and as a result the lost
shipment was not CVS Caremark’s fault, so he could not
pick up his medications from any CVS pharmacy. He was
told his best option would be to contact United Parcel
Service (UPS) to arrange a pick up. In contacting UPS,
he was forced to reveal very sensitive personal health
information to third party UPS customer service
representatives, local UPS office management, and the
UPS delivery driver, to explain why he desperately
needed the medications and could not access them at a
CVS pharmacy, and then had to arrange to meet the
driver at another location when the driver could not make
it to his residence, again requiring JOHN DOE FIVE to
expend resources and not be available to work in order to
be available on the schedule of that driver.
62.

On yet another occasion, after JOHN DOE

32
FIVE had used the CVS Specialty iOS application to
separately order two HIV/AIDS Medications that had
become eligible for refill on different dates, a CVS
Specialty pharmacy technician unilaterally made the
decision to bundle and ship both medications in one
package. Despite clear information provided by JOHN
DOE FIVE to CVS Caremark at the time he placed his
first refill request that stated exactly how many doses of
the first ordered medication he had on hand and when his
last dose would be taken, the technician’s decision
resulted in yet another missed confirmed shipment date
and a missed dose of a necessary medication. Even when
Program representatives discovered the technician’s
error, they refused JOHN DOE FIVE’s requests to be
allowed to fill the prescription at a local pharmacy or to
send a courier with the medication from a more
geographically distant pharmacy. This incident also
required him to expend resources trying to sort out CVS
Caremark’s own error, spending hours on the phone and
not being available to work.
63.
In the instances in which the failure of CVS
Caremark to deliver his medications in a timely manner
resulted in missed doses of his medications, JOHN DOE
FIVE has been told on at least three separate occasions
by Program representatives that a CVS Specialty
pharmacist had stated that there would be no detrimental
effects from missing a dose of his medications for 24
hours. This is in direct contradiction to the advice of his
prescribing physician to keep taking the medications at
the same time every day. In fact, these errors have also
resulted in further expenditures of resources, since with
missed doses of these medications, his physician orders a
new battery of blood tests, requiring JOHN DOE FIVE

33
to incur additional out-of-pocket costs for such tests and
increasing the financial burden imposed on him by the
Program.
64.
JOHN DOE FIVE had built a very close
relationship with his local pharmacist, who is
knowledgeable and understands the subtle nuances of
HIV/AIDS Medications.
He had used his local
neighborhood pharmacy since 2013, which has always
been in network under his employer health plan. His local
pharmacy is very highly regarded in the community. On
more than one occasion, he has called his local pharmacist
who has in turn called JOHN DOE FIVE’s physician to
obtain the necessary prescription from the physician.
JOHN DOE FIVE and others depend on these types of
longstanding relationships with local pharmacists to
maximize the benefits of HIV/AIDS Medications and to
treat the ever-changing needs of HIV/AIDS patients.
Such education and monitoring can most effectively be
provided by a retail pharmacy rather than a faceless
bureaucratic process.
65.
In comparison, the CVS Caremark
representatives JOHN DOE FIVE has dealt with appear
to have no specialized knowledge about HIV/AIDS
Medications or the concerns of HIV patients, resulting in
the reduction or effective elimination of such benefits.
Further, JOHN DOE FIVE shares the same financial
concerns as the other Plaintiffs in terms of the impact of
the Program on the affordability of his specialty
medications.
66.
The unnecessary challenges and sacrifices
that CVS Caremark’s Program has imposed and
continues to impose on JOHN DOE FIVE results in
stress and obstacles to medication compliance. Of course,

34
untimely delivery of these medications jeopardizes his
health, which can deteriorate quickly without timely
taking such medications, and subjects him to the risk of
developing increased drug resistance as a result of missed
doses. Accompanying these injuries to his economic and
physical well-being also comes a feeling of despondence
and lack of control over his own health, which is
detrimental to his psychological well-being. The failure of
CVS Caremark’s Program to retain and apply basic
information from one prescription fill to the next also
results in increased stress and delayed treatment for
JOHN DOE FIVE. JOHN DOE FIVE’s present and ongoing experience with CVS Caremark’s Program has
dramatically increased his stress, which plays a part in
undermining the human immune system and is
detrimental to people with chronic illness.
67.
On or about March 30, 2018, JOHN DOE
FIVE, pursuant to the terms of his employer plan,
submitted a written request to be exempted from the
Program. After receiving several form letters from CVS
that had nothing to do with his request but asked for
additional personal information from him, CVS denied his
request for an exemption. On or about May 30, 2018, he
filed a written appeal of this denial, which was further
denied by CVS on or about June 5, 2018. JOHN DOE
FIVE has thus exhausted all requirements set forth in his
plan to bring ERISA claims against Defendants, as
recognized in the most recent appeal denial letter he
received from CVS.
STATEMENT OF FACTS
68.
The Program results in a reduction in or
elimination of health plans’ drug benefits, effectuated by
transforming drug purchases at community pharmacies

35
from an “in-network” covered benefit to an “out-ofnetwork” payment. Under the Program, patients using a
non-CVS community pharmacy will be considered going
“out-of-network” and will be subject to increased “out-ofnetwork” charges or may not have these medications
covered at all. Class Members also face a potential or
actual increase in out-of-pocket expenses, as co-pays or
discounts or rebates that were otherwise covered or
recognized may not be consistently covered by or
recognized under the Program at the discretion of CVS to
elect whether to do so, resulting in an overall increased
cost for the same benefits. As part of the prescription
drug plans it offers, one of CVS Caremark’s roles as a
prescription drug benefit administrator for any plan
sponsor or health plan it contracts with is to establish and
contractually control which, if any, non-CVS pharmacies
are “in-network,” thereby determining where Class
Members may purchase their prescription drugs with full
insurance coverage.
69.
As a result of Defendants’ discriminatory
behavior, HIV/AIDS patients face a potentially lifethreatening decision that also threatens their privacy and
reduces their current health plan’ drug benefits. They
must either: (i) forego essential counseling from an expert
pharmacist at a community pharmacy and face risks to
their privacy that are inherent in the Program, since even
where CSP permits deliveries to CVS pharmacies, they
are only for drop shipment as compared to being filled
there and subject to active consultation by a pharmacist;
or (ii) pay hundreds or thousands of dollars out-of-pocket
monthly for their medications at their non-CVS
community pharmacy.
70.

The community specialty pharmacist knows

36
patients’ medical history and, working directly with
patients in face-to-face interactions and with specific
training in HIV/AIDS Medications, is best positioned to:
(i) detect potentially life-threatening adverse drug
interactions and dangerous side effects, some of which
may only be detected visually; (ii) immediately provide
new drug regimens as their disease progresses; and
(iii) provide essential advice and counseling that help
HIV/AIDS patients and families navigate the challenges
of living with a chronic and sometimes debilitating
condition.
Defendants’ Program is further flawed
because it does not allow some subscribers to transfer all
of their medications to a single provider. Instead, CVS
Caremark’s Program is in fact two distinct programs for
many subscribers—one for regular medications, and a
separate program for specialty medications. This means
that many patients, including JOHN DOE ONE, JOHN
DOE THREE, JOHN DOE FOUR, and JOHN DOE
FIVE must manage prescriptions between community
pharmacies and the Program. This “separate and
unequal” splitting of prescription providers also makes it
difficult if not impossible for CVS Caremark to track
potentially life-threatening drug interactions, as
discussed below.
71.
To the extent applicable to them, Plaintiffs
have exhausted available administrative remedies with
regard to opting-out of the Program. In response, CVS or
the plan sponsors either did not formally respond to these
opt-out requests or refused to permit Plaintiffs to opt-out
of the Program. Plaintiffs therefore bring this action on
behalf of themselves and on behalf of a class (defined
herein) of residents in the United States who: (i) are or
were enrolled in a health care plan that includes a

37
prescription drug benefit that is administered by CVS
Caremark; and (ii) have been prescribed specialty
HIV/AIDS Medications subject to the Program.
72.
For all but the wealthiest HIV/AIDS
patients, the dramatic cost increases and/or reductions in
or elimination of benefits of coverage associated with the
Program are untenable, and thus many Class Members
are left with no choice but to risk their health and privacy
by obtaining their life-sustaining medications through the
Program.
73.
This limitation is a material change to and
reduction or elimination of benefits in Class Members’
pharmacy benefits and violates both federal and state law
as described herein. One harmful impact of this policy is
that the Program does not allow for early refills; patients
cannot refill their HIV/AIDS Medication until the very
end of their current prescription. As a result, enrollees
will be forced to call or fax CSP to re-order drugs during
a very narrow period of time each month, often requiring
them to coordinate with their physicians as further
described below. If there are: (i) circumstances that
make it difficult for the patient to re-order drugs at the
designated time—such as with JOHN DOE ONE, for
example, who works out of town for days at a time—or
other workload and travel commitments or illness; or
(ii) billing, processing or mail complications or delays
(such as happened with JOHN DOES TWO, THREE,
FOUR, and FIVE), HIV/AIDS patients will likely miss
doses and potentially experience serious health problems
as a result.
74.
In addition to the potentially lifethreatening health consequences of the Program as
discussed below, Class Members’ fundamental and

38
inalienable right to privacy is also threatened. An
improper disclosure of a person’s HIV or AIDS status can
often result in the denial of proper health care, poor
treatment in educational and work settings, and many
other collateral consequences. See Activities Combating
HIV Stigma and Discrimination, HIV.gov, https://www
.hiv.gov/federal-response/federal-activities-agencies
/activities-combating-hiv-stigma-and-discrimination (last
visited January 31, 2018). Ninety percent of Americans
recognize that people living with HIV and AIDS face
prejudice and discrimination, and roughly one in eight
people living with HIV is denied health services because
of such stigma and discrimination associated with the
disease. See Henry J. Kaiser Family Foundation, the
Washington Post/Henry J. Kaiser Family Foundation
2012 Survey of Americans on HIV/AIDS (July 2012); see
also HIV Stigma and Discrimination, AVERT, https://
www.avert.org/professionals/hiv-social-issues/stigmadiscrimination (last visited January 31, 2018). For the
roughly one million Americans living with HIV/AIDS, the
“painful stigma and discrimination continue to permeate
their daily lives.” 4 Eradicating Discrimination Against
“HIV stigma and discrimination can pose complex barriers to
prevention, testing, treatment, and support for people living with or
at risk for HIV. Some examples of stigma include being shunned by
family, peers, and the wider community; receiving poor treatment in
health care and education settings; and experiencing judgmental
attitudes, insults, or harassment. Some individuals with HIV have
been denied or lost employment, housing, and other services;
prevented from receiving health care; denied access to educational
and training programs; and have been victims of violence and hate
crimes. HIV-related stigma and discrimination prevents individuals
from learning about their HIV status, disclosing their status even to
family members and sexual partners, and/or accessing medical care
and treatment, weakening their ability to protect themselves from

4

39
People Living With HIV/AIDS, U.S. Dept. of Justice
Archives,
https://www.justice.gov/archives/opa/blog
/eradicating-discrimination-against-people-living-hivaids
(last visited January 30. 2018). Class Members who live
in apartment buildings or will be required to have
medications delivered to their work place have expressed
alarm that neighbors and co-workers, who do not know
that the recipient has HIV/AIDS, will come to suspect
that they are ill. Mail-order shipments also present the
risk of lost or stolen medications, as each shipment of
medications may be worth thousands of dollars. CVS
Caremark claims Class Members bear the financial risk
of lost shipments left at their door or in their mailbox.
Alternatively, the recipient may need to be present when
the package is delivered, thus forcing the patient to obtain
needed medications on the schedule of the delivery
person, which raises further privacy and personal liberty
concerns or requires them to miss hours or days of work
waiting for deliveries. Furthermore, if a Class Member
obtains his or her HIV/AIDS Medications from a CVS
pharmacy, he or she must discuss those medications with
pharmacy personnel with whom he or she does not know
and are likely not aware of their disability or medical
condition, in violation of their right to privacy. All Class
Members must discuss their HIV/AIDS status with CSP
personnel over the phone.
75.
Even if they elect to not use mail order but
rather a regular CVS pharmacy for pick-up of their
HIV/AIDS Medications under the Program, Class
getting or transmitting HIV, and to stay healthy.” Activities
Combating HIV Stigma and Discrimination, HIV.gov, https://
www.hiv.gov/federal-response/federalactivities-agencies/activitiescombating-hiv-stigma-and-discrimination (last visited Jan. 30, 2018).

40
Members still face serious health and privacy issues. The
pharmacists at a CVS pharmacy do not fill the HIV/AIDS
Medication prescriptions.
Such pharmacists are
generally unable to provide any counseling services
related to the HIV/AIDS Medications. Class Members
may be forced to fill their HIV/AIDS Medication
prescriptions at full-cost at their local pharmacies just so
they can receive the personalized services they need from
their established community pharmacists.
Class
Members in such a situation run the risk of having to
manage their prescriptions between their local pharmacy
and CVS Caremark by themselves. CVS Caremark also
may not have a full and accurate record of all of the
medications the Class Members are taking and cannot
anticipate or warn against potential adverse drug
interactions, which are common with HIV/AIDS
Medications. Additionally, similar to mail-order, Class
Members must wait for their HIV/AIDS Medications to
ship to a CVS pharmacy and face delays and lost
shipments.
76.
Furthermore, CVS pharmacy personnel do
not have the same level of sensitivity as Class Members’
local pharmacy staff. For example, Class Members have
reported that CVS personnel shouted the name of their
HIV/AIDS Medications across the room in front of other
customers, raising severe privacy concerns and making it
untenable to pick up their medications at a CVS pharmacy
in the future.
77.
Drop shipment to a CVS pharmacy is
simply not the same benefit as having access to a local
pharmacy where pharmacists are aware of Class
Members’ drug history and regimen. Even though Class
Members are given a choice to have their HIV/AIDS

41
Medications delivered to their home, CVS Caremark does
not provide them a window of time when the delivery will
take place. As a result, Class Members are forced to wait
at home all day to sign for their medications. If Class
Members do not have a signature required for their
HIV/AIDS Medications, then they face the risk of having
their drugs stolen because their HIV/AIDS Medications
are left sitting in front of their doors, as stated above.
How such medications are delivered, the limited options
provided to Plaintiffs and Class Members, the mix ups and
delays occasioned by CVS’s flawed delivery process, the
decision not to constantly apply rebates or discounts,
and/or the decisions to offer an opt-out and non-opt-out
option to plan sponsors and/or recognize opt-out requests
are all matters within CVS’s discretion and control.
78.
The Program constitutes a material and
discriminatory change in Class Members’ coverage, a
significant reduction in or elimination of prescription drug
benefits, and a violation of the standards of good health
care and clinically appropriate care for HIV/AIDS
patients.
By implementing such practices, CVS
Caremark effectively reduces the quality of prescription
drug care provided to Class Members, and thus a
reduction or elimination of benefits, by forcing enrollees
to only obtain such medications through their sister coconspirator and wholly-owned subsidiary CSP – allowing
CVS Caremark to profit through this conduct by keeping
hundreds of thousands, if not millions, of dollars in
prescription fill fees, possible rebates and other monies to
themselves. As a result, many Class Members have
already expended resources in response to the Program
and presently are threatened with substantial, imminent,
and irreparable harm. This harm includes a grave threat

42
to their health and safety, as well as their right to privacy.
79.
The decision to force Class Members to
accept CSP as their exclusive provider under the
Program, not advise enrollees of opt-out rights in a
meaningful way, not timely deliver medications, not
consistently applying or accepting rebates or discounts
offered by manufacturers and provided to enrollees
and/or providing financial incentives to employers to
enroll in the Program are acts and decisions exclusively in
the control and discretion of CVS Caremark. Such
decisions are ultimately motivated by profit, as shown by
CVS Caremark providing financial incentives to selffunded plans and other plan sponsors to select the
Program over a prescription drug benefit plan that allows
enrollees to use the pharmacy of their choice. CVS
Caremark profits if plan sponsors select a prescription
benefit plan that is subject to the Program. As a result of
the Program, CVS Caremark and CSP will likely continue
to see a substantial increase in revenues and even greater
increases in profits as a result of the forced transition of
its enrollees.
The Role of the Clinical Pharmacist and the
Importance of Face-to-Face Interactions
80.
Many physicians specializing in HIV/AIDS
treatment are unable to spend very long with each patient.
In fact, physician consultations are often limited to just 15
minutes in the era of managed care. As a result, there is
very limited time for the physician to elicit extensive
information about the patient’s complete medical history,
including which non-HIV/AIDS Medications the patient is
taking, and impart critical information about prescription
drug regimens and warnings about the high number of
known adverse side effects and adverse drug interactions

43
associated with HIV/AIDS Medications that need to be
monitored. For this reason and the reasons that follow, it
is vitally important for HIV/AIDS patients, even as
compared to patients taking other “specialty”
medications, to have access to in-person consultations,
where they can address any and all of the numerous issues
and concerns surrounding drug interactions, side effects,
and other problems that can arise while living with and
managing HIV/AIDS.
81.
HIV/AIDS patients are often prescribed
both specialty and non-specialty medications, including
over-the-counter medications that do not require a
prescription and therefore are not tracked in the same
manner as prescription medications. Many HIV/AIDS
patients have a history of cardiovascular disease,
hypertension, anemia, diabetes, or psychiatric issues,
among other conditions. Medications that manage mental
health issues, for example, such as antidepressants, antipsychotics, and sleep agents, among others, are often not
prescribed by the physician managing the patient’s
HIV/AIDS conditions. Since for many patients only
specialty medications are to be filled by CVS Caremark’s
wholly-owned subsidiary CSP, and non-specialty
medications may be filled at the patient’s community
pharmacy, CSP may not always have a full and accurate
record of all the medications the patient is taking and
therefore cannot anticipate or warn against potential
adverse drug interactions, which are common with
HIV/AIDS Medications. Even worse, CVS Caremark
uses its discretion to require some enrollees to fulfill both
specialty and non-specialty medications using the
Program, thereby denying them the benefit of any direct
pharmacist consultation.

44
82.
But for the Program, a patient’s community
pharmacist would be aware of the patient’s entire medical
history, have a comprehensive view of the patient’s
complete medication load (as compared to only certain
specialty medications), and engage in on-going
communications with physicians and patients regarding
potential issues that may arise concerning drug side
effects, adverse drug interactions, and adherence to
specialty medications.
83.
The ability of community pharmacists to
closely monitor HIV/AIDS patients in face-to-face
encounters is life-saving in many instances. In the case of
a patient with a history of depression, for example, a
community pharmacist can work with the patient through
regular “check-ins” as changes in mood, attitudes or dayto-day function would change if an HIV/AIDS Medication,
such as Atripla (with documented central nervous system
side effects), were prescribed. Other side-effects provide
visual cues—changes in skin color, for example—that
cannot be detected over the phone.
Additionally,
community pharmacists, who serve patients prescribed
medications by numerous doctors, may have more up-todate experience and information about potential adverse
drug interactions and changes in drug regimens than
physicians themselves.
84.
HIV/AIDS patients, therefore, rely on their
specialty community pharmacist to remind them how and
when drugs must be taken, to review potential side effects
with many other medications and to develop strategies to
avoid those side effects, and to provide other counseling
including what to expect if a patient’s drug regimen
changes.
85.

Conversely, the CSP personnel with whom

45
Class Members typically directly interact with,
particularly over the phone, are not pharmacists, nor do
they have specific knowledge about HIV/AIDS, but rather
are general customer service representatives with little to
no specialized training about HIV/AIDS Medications.
Thus, taking the local pharmacist, and the community
pharmacy where they provide their services, out of the
treatment equation for HIV/AIDS patients, results in a
loss and injury to Class Members as it lessens the quality
of care and benefits they receive and are entitled to
receive under their plans.
86.
This harm is not conjectural or speculative,
but real, imminent and severe. “Putting a label on the
bottle — that’s the least of what we do,” Marva Brannum,
a clinical specialty pharmacist at Edwin’s Prescription
Pharmacy in North Hollywood, California, has explained.
Ms. Brannum, who has worked with HIV and AIDS
patients for 30 years, said working with patients also
includes knowing the psychological and social issues
involved with their disease states and providing a critical
informed link between doctor and patient. Importantly,
working with patients directly allows pharmacists to
monitor potential adverse drug interactions. “We are an
extension of the patient’s clinical team,” Brannum said.
87.
The Program thus reduces the overall
quality of care Class Members receive and reduces or
effectively eliminates their health plans’ pharmacy
benefit, since providing an effective pharmacy benefit for
HIV/AIDS patients is not just a question of knowing the
drugs the patient uses, but also knowing the patient and
all of their medical needs. “The most intricate part that
leads to quality outcomes and leads to decreased costs for
us is knowing the patient in total,” Brannum said.

46
88.
Patients who need specialty medicines and
suffer from complex diseases require complex treatment.
Community pharmacists that provide HIV/AIDS
Medications build strong personal and clinical
relationships with their patients, making sure that they
receive the drugs they need when they need them and
even providing them discounts for these expensive
medications. The community pharmacist is an essential
member of the treatment team.
89.
Furthermore, because there is presently no
cure for HIV/AIDS, the virus continually mutates around
the medications prescribed to treat it, requiring constant
monitoring and immediate provision of new medication
regimens to address changes in treatment. Periods of
medication changes are particularly sensitive times for
HIV/AIDS patients. Doctors and pharmacists must
review the panoply of the patient’s medications for
potential new adverse drug interactions, and patients
must be concerned about addressing new drug side effects
in the short term.
90.
The limited options available to obtain
HIV/AIDS Medications under the Program also creates
the very real risk of delayed, lost or stolen shipments,
resulting in dire consequences for many patients who
must strictly adhere to their medication regimes or face
serious illness or death, as well as potentially serious
personal financial liability according to CVS Caremark,
who in its discretion claims these losses are the patient’s
responsibility even though they are occasioned by the
mandated use of the Program. Yet, as detailed below,
Defendants appear to have no realistic fail-safe procedure
in place to allow subscribers to purchase medications at
local community pharmacies (or as shown by the

47
experiences of Plaintiffs, even at CVS pharmacies) in the
event that such shipments are delayed, lost, or stolen.
Unfortunately, theft of HIV/AIDS Medications appears
to be more than an isolated event due to the high cost of
some of the medications.
91.
CVS Caremark has replaced the present,
on-going, close relationship between community
pharmacist and patient with a toll-free telephone number
that does not and cannot provide the same or similar level
of service and benefits as detailed above. Class Members
are not provided regular access to a pharmacist with
similar qualification levels, if at all. Furthermore, the
Program’s requirement that Class Members must
routinely call-in during a limited time period to renew
their prescriptions as explained below—and work their
way through automated robocalls, messages and multiple
call center staff—increases stress and fatigue for patients,
exacerbating their condition.
Defendants’ Discriminatory Business Practices
Specifically Target HIV/AIDS Patients
92.
Due to the complex nature of their disease
and medications, HIV/AIDS patients are particularly
hard hit and discriminated against by requiring patients
to obtain their specialty medications exclusively under the
Program. For the reasons stated herein, patients with
HIV and AIDS are disproportionately impacted by the
Program compared to other patients, even compared to
patients
prescribed
non-HIV/AIDS
specialty
medications.
93.
Further, as the Program applies to
HIV/AIDS Medications and other disabilities, but permits
Plaintiffs and Class Members to continue to use their

48
pharmacist of choice as an in-network benefit for other
medications, including other medications prescribed to
the same individuals, the Program specifically targets and
discriminates against individuals on the basis of their
disability. The Program denies HIV/AIDS patients full
and equal access to utilize the in-network pharmacies and
method of delivery of their choice specifically because of
the medications attributable to their illness, while at the
same time permitting other enrollees to enjoy full access
to the pharmacies of their choice. This is an arbitrary and
harmful distinction, since the pharmacists’ role is even
more important in caring for HIV/AIDS patients. While
the Program may be appropriate for some patients or
some medications, it is not appropriate for all patients
with complex, chronic conditions, especially illnesses
subject to social stigma where privacy is a significant
concern like HIV/AIDS, for which the pharmacist does
much more than merely dispense specialty medications.
The decision to enroll in the Program should be a matter
of informed enrollee choice, not an insurance company or
administrator mandate. CVS Caremark’s change in
policy and corresponding reduction in or elimination of
benefits creates a particular health risk for HIV/AIDS
patients that require time-sensitive treatments. Even
worse, CVS Caremark uses its discretion to require some
enrollees to fulfill both specialty and non-specialty
medications using the Program, so that they are directly
discriminated against by being required to go to the
lowest common denominator to obtain all of their
medications.
94. According to CVS Caremark, “specialty
medications often treat complex and chronic conditions.
They tend to be more expensive and can require special

49
storage like refrigeration or special administration, like
an injection.”5 According to CVS’ Specialty Pharmacy
Distribution Drug List for April 2018, 6 the following is a
list of medications classified as “specialty” by CVS.
Critically, all of the HIV/AIDS Medications taken by
Plaintiffs are classified as “specialty” by CVS Caremark,
and are thus subject to the Program. In fact, CVS
Caremark’s “Value Formulary” categorically lists “HIV
Medications” as “specialty medications,” all subject to the
mandatory requirements of the Program. 7 The specialty
medications are listed below corresponding to the medical
conditions they treat, including HIV/AIDS. Only the
specialty medications are subject to the Program, and
these drugs may only be obtained through the Program.
The specialty medications listed below are used to treat
illnesses that meet the definition of “disability” under the
ADA 8 (see 29 C.F.R. § 1630.2):
Learn About Us, CVS Specialty Pharmacy, https://www
.cvsspecialty.com/wps/portal/specialty/patients/learn-about-us/!ut
/p/a1/hc5BCsIwEAXQs3iCTOg0ziyDtGNQSKSgNRvJSgLadiGe37
R0q87uw_ufUVH1Kg7pne_plcchPeYczY3Ccac9wsFvLYE1juvWiM
ZQF3AtAL6chX_9i4oLEdIiC-mYwWLVnIO0FRCugPcEDqWA07z
BHhtAho70Cn78MD17yM5uPjnKMcM!/dl5/d5/L2dBISEvZ0FBIS9
nQSEh/ (last visited June 12, 2018).
6
CVS Specialty Pharmacy Distribution Drug List, April 2018,
https://www.cvsspecialty.com/wps/wcm/connect/d5405d7b-685e-4377b998-2e4c4daf0b13/SpecialtyDrugs.pdf?MOD=AJPERES&
CACHEID=d5405d7b-685e-4377-b998-2e4c4daf0b13 (last visited
June 12, 2018).
7
CVS Caremark Value Formulary, Effective as of 04/01/2018,
https://www.caremark.com/portal/asset/Value_Formulary.pdf (last
visited Jun2 12, 2018.)
8
Arguably, there are two drugs on CVS’ specialty formulary
that may not treat a disability: Makena, designed to lower the risk of
pre-term birth in women who have experienced pre-term birth in the
past, and Synagis, designed to treat respiratory syncytial virus.
5

50
•
HIV/AIDS: as set forth below, HIV and AIDS
are disabilities subject to the ADA. CVS Caremark
requires modern, commonly prescribed drugs for
HIV/AIDS and its related conditions to be obtained only
through the Program:
o
Aptivus; Atripla; Biktarvy; Combivir;
Complera; Crixivan; Descovy; Edura; Egrifta; Emtriva;
Epivir; Epzicom; Evotaz; Fuzeon; Genvoya; Intelence;
Invirase;Isentress; Julua; Kaletra; Lexiva; Norvir;
Odefsey; Prezcobix; Prezista; Rescriptor; Retrovir;
Retrovir; Injectable; Reyataz; Selzentry; Stribild;
Sustiva; Symfi Lo; Tivicay; Triumeq; Trizivir; Truvada;
Tybost; Videx; Videx Ec; Videx Solution; Viracept;
Viramune; Viramune Xr; Viread; Zerit; Ziagen; Ziagen
Solution;
Abacavir
Tab;
Abacavir/Lamivudine;
Abacavir/Lamivudine/Zidovudine
Tab;
Atazanavir
Sulfate;
Didanosine;
Efavirenz;
Fosamprenavir;
Lamivudine;
Lamivudine/Zidovudine;
Lopinavir/
Ritonavir Soln; Nevirapine; Ritonavir; Stavudine;
Tenofovir Disoproxil Fumarate; Zarxui; and Zidovudine.
•
Active Psoriatic Arthritis: “is a form of arthritis
that affects some people who have psoriasis — a [skin]
condition ... Joint pain, stiffness and swelling are the main
However, the inclusion of one or even a handful of medications used
to treat non-disabilities on the specialty pharmacy list does not allow
CVS to avoid an ADA or ACA violation. Moreover, the ADA’s safe
harbor provision is not a license for health insurers to discriminate.
Insurers may not employ the safe harbor provision as subterfuge to
circumvent anti-discrimination protections. As alleged herein, the
Program demonstrates discriminatory intent on behalf of CVS
against HIV and AIDS patients. CVS’ Program is designed to
discourage HIV and AIDS patients, as well as individuals with other
disabilities, from enrolling in or remaining enrolled in a CVS
Caremark health plan.

51
symptoms of psoriatic arthritis. They can affect any part
of [the] body, including … fingertips and spine, and can
range from relatively mild to severe. . . . Without
treatment, psoriatic arthritis may be disabling.” 9 Thus,
Active Psoriatic Arthritis is a disability: a physical
impairment that substantially limits the major life
activities of, inter alia, performing manual tasks, walking,
standing, sitting, reaching, lifting, bending, and the
operation of special sense organs and skin and the
musculoskeletal function, making it a disability under the
ADA. See 29 C.F.R. §1630.2(j)(iii); see also Carmona v.
Southwest Airlines Co., 604 F. 3d 848, 859 (5th Cir. 2010)
(holding that an individual who suffered from psoriatic
arthritis was considered to have an impairment that
substantially limits a major life activity under the ADA
because psoriatic arthritis limits one’s ability to walk).
CVS Caremark requires drugs for Active Psoriatic
Arthritis to be obtained only through the Program:
o
Cosentyx; Enbrel; Humira; Inflectra;
Otezla; Otrexup; Rasuvo; Remicade; Renflexis; Siliq;
Stelara; Taltz; and Tremfya.
•
Atrial fibrillation: “is an irregular and often
rapid heart rate that can increase [one’s] risk of stroke,
heart failure and other heart-related complications.”10 At
times, atrial fibrillation only occurs on occasion, but it can
also persist permanently, subjecting those who suffer
from atrial fibrillation to endure fatigue, dizziness,
Mayoclinic.org, Diseases and Conditions, Psoriatic Arthritis
Definition, http://www.mayoclinic.org/diseases-conditions/psoriaticarthritis/basics/definition/con-20015006 (last visited June 7, 2018).
10
Mayoclinic.org, Diseases and Conditions, Atrial Fibrillation,
https://www.mayoclinic.org/diseases-conditions/atrial-fibrillation
/symptoms-causes/syc-20350624 (last visited June 7, 2018).
9

52
shortness of breath, chest pain, and reduced physical
mobility. 11
Thus, atrial fibrillation is a physical
impairment that substantially limit the major life
activities of, inter alia, breathing and regular mobility,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires atrial fibrillation
drugs to be obtained only through the Program:
o

Tikosyn; Dofetilide; and Ceprotin.

•
Allergic Rhinitis: “is a reaction that happens in
the eyes, nose, and throat when allergens in the air trigger
the release of histamine in the body. Histamine causes
itching, swelling, and fluid to build up in the fragile linings
of nasal passages, sinuses, and eyelids.” 12 Thus, allergic
rhinitis is a physical or mental impairment that
substantially limits the major life activity of, inter alia,
properly functioning respiratory process, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j) (iii);
see also Homeyer v. Stanley Tulchin Assoc., Inc., 91 F. 3d
959, 963 (7th Cir. 1996) (finding that, with adequate
evidence, it is plausible a jury would conclude that allergic
rhinitis substantially limits one’s respiratory function
thus rending it a disability under the ADA). CVS
Caremark requires drugs for allergic rhinitis and its
related conditions to be obtained only through the
Program:
o
•

Oralair.

Alpha-1 Antitrypsin Deficiency (AAT):

“is a

Id.
Hopkinsmedicine.org, John Hopkins Medical, Allergic
Rhinitis in Children, https://www.hopkinsmedicine.org/healthlibrary
/conditions/pediatrics/allergic_rhinitis_in_children_90,P01704 (last
visited June 8, 2018.)

11

12

53
condition that raises [one’s] risk for lung disease ... and
other diseases.” 13
AAT causes several symptoms,
including lowering one’s physical activity levels, tiredness,
lung infection, vision problems, and weight loss. Thus,
AAT is a physical or mental impairment that substantially
limits the major life activity of, inter alia, everyday tasks
involving physical mobility, making it a disability under
the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark
requires drugs for AAT and its related conditions to be
obtained only through the Program:
o

Aralast Np; Glassia; and Zemaira.

•
Anemia: is a condition in which a person does not
have the needed amount of healthy red blood cells to
adequately carry oxygen to the body’s tissues. 14 If left
untreated, anemia can cause severe fatigue, pregnancy
complications, heart problems, and death. Thus, anemia
is a physical or mental impairment that substantially
limits the major life activity of, inter alia, everyday tasks,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires drugs for anemia
and its related conditions to be obtained only through the
Program:
o

Aranesp; Epogen; and Procrit.

•
Asthma: “is a chronic lung disease that inflames
and narrows the airways. The airways are tubes that
13

Nhlbi.nih.gov, U.S. Department of Health and Human
Services, National Heart, Lung, and Blood Institute, Alpha-1
Antitrypsin,
https://www.nhlbi.nih.gov/health-topics/alpha-1antitrypsin-deficiency (last visited June 7, 2018).
14
Mayoclinic.org, Diseases and Conditions, Anemia Overview,
https://www.mayoclinic.org/diseases-conditions/anemia/symptomscauses/syc-20351360 (last visited June 7, 2018).

54
carry air into and out of [one’s] lungs.” 15 With ongoing
care and proper treatment, most individuals with asthma
experience few symptoms, but specific triggers, such as
air quality, certain medications, increased physical
activity, or dust can cause one’s asthma to worsen, which
can result in lowered physical activity levels. Thus,
asthma is a physical or mental impairment that
substantially limits the major life activity of, inter alia,
everyday tasks, making it a disability under the ADA. See
29 C.F.R. § 1630.2(j)(iii). CVS Caremark requires drugs
for asthma and its related conditions to be obtained only
through the Program:
o
Cinqair; Fasenra; Nucala; Levoleucovorin
Calcium; And Xolair.
•
Blood Clotting Disorders (Hypercoagulable
States or Thrombophilia): are conditions that are
usually genetic or acquired in which a person has
tendency to form clots when the blood is simply moving
through the body. 16 People with these disorders have an
increased risk for blood clots developing in the arteries
and veins and, therefore, and increased risk for stroke,
heart attack, severe leg pain, difficulty walking, or even
the loss of a limb. Thus, blood clotting disorders are
physical or mental impairments that substantially limit
the major life activities of, inter alia, hemic and
Nhlbi.nih.gov, U.S. Department of Health and Human
Services, National Heart, Lung, and Blood Institute, Asthma,
https://www.nhlbi.nih.gov/health-topics/asthma (last visited June 7,
2018).
16
My.clevelandclinic.org, Disease and Conditions, Blood
Clotting
Disorders
(Hypercoagulable
States)
Overview,
https://my.clevelandclinic.org/health/diseases/16788-blood-clottingdisorders-hypercoagulable-states (last visited June 7, 2018).
15

55
circulatory functions, organ functions, limbs, and walking,
making them disabilities under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires drugs for blood
clotting disorders and related conditions to be obtained
only through the Program:
o
Stimate.

Bebulin; Benefix; Mononine; Rixubis; and

•
Cancer: is “a collection of related diseases [in
which] some of the body’s cells begin to divide without
stopping and spread into surrounding tissues.” 17 Thus, all
cancers are a physical or mental impairment that
substantially limits the major life activity of, inter alia,
the operation of normal cell growth, making it a disability
under the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS
Caremark requires drugs for cancer and its related
conditions to be obtained only through the Program:
o
Afinitor; Alecensa; Alunbrig; Benlysta;
Bosulif; Cabometyx; Cotellic; Erivedge; Erleada;
Farydak; Gleevec; Hycamtin; Ibrance; Inlyta; Iressa;
Jakafi; Kisqali; Kisqali Femara Co-Pack Lonsurf;
Mekinist; Mozobil; Mitoxantrone 18; Mugardnerlynx;
Neumega: Nexavar; Ninlaro; Odomzo; Pomalyst;
Purixan; Procrit; Revlimid; Rubraca; Soliris; Sprycel;
Stivarga; Sutent; Sylatron; Stelara; Tafinlar; Tagrisso;
Tarceva; Targretin; Tasigna; Temodar; Temozolomide;
Thalomid; Tykerb; Verzenio; Votrient; Xalkori; Xeloda;
Xtandi; Zelboraf; Zolinza; Zortress; Zykadia; Zytiga;
Neulasta; Neupogen; Lonsurf; Leuprolideacetate;
Cancer.gov, What is Cancer?, http://www.cancer.gov/aboutcancer/what-is-cancer (last visited June 7, 2018).
18
Cancer medication are also used to treat other disabilities
such as Crohn’s Disease.
17

56
Ibrance; Capecitabine; Bexarotene; Promacta; Granix;
Leukine; Neulasta; Neupogen; Eligard; Firmagon;
Supprelin La; Trelstar; Vantas; Zoladex Adcetris;
Avastin; Bavencio; Beleodaq; Bendeka; Cyramza;
Dacogen; Darzalex; Empliciti; Erbitux; Evomela;
Folotyn; Fusilev; Gazyva; Halaven; Herceptin; Imfinzi;
Istodax; Ixempra; Jevtana; Kadcya; Keytruda; Kyprolis;
Levoleucovorin Calcium; Opdivo; Perjeta; Portrazza;
Proleukin; Rituxan; Rituxan; Hycela; Romidepsin;
Sylatron; Sylvant; Tecentriq; Temodar; Tepadina;
Thyrogen; Torisel; Treanda; Valstar; Vectibix; Velcade;
Vidaza; Xgeva; Yervoy; Yondelis; Zaltrap; Zometa;
Azacitidine; Decitabine; Mitoxantrone; and Zoledronic
Acid.
•
Cervical Dystonia: “is a painful condition in which
[one’s] neck muscles contract involuntarily, causing their
head to twist or turn to one side. Cervical dystonia can
also cause [one’s] head to uncontrollably tilt forward or
backward.” 19 Cervical dystonia Can cause severe neck
pain and headaches, and in some cases, the pain can be
“exhausting and disabling.” 20 Thus, cervical dystonia is a
physical impairment that substantially limits a major life
activity of, inter alia, physical mobility, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires cervical dystonia drugs to be
obtained only through the Program:
o
•

Botox; Dysport; Myobloc; and Xeomin.

Chronic Kidney Disease or Chronic Renal

Mayoclinic.org, Diseases and Conditions, Cervical Dystonia,
https://www.mayoclinic.org/diseases-conditions/cervical-dystonia
/symptoms-causes/syc-20354123 (last visited June 7, 2018).
20
Id.
19

57
Failure: is the gradual loss of kidney function. “Chronic
kidney disease can progress to end-stage kidney failure,
which is fatal without artificial filtering (dialysis) or a
kidney transplant.” 21 Thus, chronic kidney disease is a
physical or mental impairment that substantially limits
the major life activity of, inter alia, the operation of
kidneys, making it a disability under the ADA. See 29
C.F.R. § 1630.2(j)(iii). CVS Caremark requires drugs for
chronic kidney disease and its related conditions to be
obtained only through the Program:
o

Norditropin; Parsabiv; and Sensipar.

•
Crohn’s Disease: “is an inflammatory bowel
disease (IBD). It causes inflammation of the lining of [the]
digestive tract, which can lead to abdominal pain, severe
diarrhea, fatigue, weight loss and malnutrition.” 22 Thus,
Crohn’s disease is a physical impairment that
substantially limits the major life activities of, inter alia,
the operation of digestive and bowel functions, making it
a disability under the ADA. See, e.g., Crevier v. Town of
Spencer, D.Mass.2008, 600 F.Supp.2d 242 (employee’s
Crohn’s disease, a chronic illness that causes
inflammation and ulceration in the digestive tract,
interfered with employee’s major life activity of working,
and thus was a disability within the meaning of the ADA).
CVS Caremark requires drugs for Crohn’s disease to be
obtained only through the Program:
Mayoclinic.org, Diseases and Conditions, Chronic Kidney
Disease Overview, https://www.mayoclinic.org/diseases-conditions
/chronic-kidney-disease/symptoms-causes/syc-20354521 (last visited
June 7, 2018).
22
Mayoclinic.org, Diseases and Conditions, Crohn’s Disease,
Definition,
http://www.mayoclinic.org/diseases-conditions/crohnsdisease/basics/definition/con-20032061 (last visited June 7, 2018).
21

58
o

Cimzia; Entyvio; and Humira.

•
Cryopyrin-associated
autoinflammatory
syndromes (CAPS): “consist of three diseases 23 related
to a defect in the same gene [but] differ in the organs
involved…. [Symptoms of these diseases include, inter
alia:] fever with inflammation in multiple organs …
chronic meningitis (inflammation of the membranes
surrounding the brain) resulting in headache, blindness,
hearing loss or other neurologic problems … joint pain
and swelling of the bones surrounding the large joints,
especially the knees … growth delay … episodic fever,
chills, rash, red eyes, joint pain and severe headaches with
vomiting.… Deafness or partial hearing loss … a hive-like
rash.” 24 Thus, CAPS is a physical impairment that
substantially limits the major life activities of, inter alia,
seeing, hearing, and the operation of the brain,
neurological, and musculoskeletal functions, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires drugs for CAPS and related
conditions to be obtained only through the Program:
o

Arcalyst and Ilaris.

•
Cystic fibrosis: “is an inherited disorder that
causes severe damage to the lungs and digestive system.
[It] affects the cells that produce mucus, sweat and
digestive juices. … a defective gene causes the[se]
These three diseases are called: Neonatal Onset Multisystem
Inflammatory Disease (NOMID), Muckle-Wells syndrome, and
Familial cold auto inflammatory syndrome.
24
Rheumatology.org, Cryopyrin Associated Autoinflammatory
Syndromes,
http://www.rheumatology.org/I-Am-A/PatientCaregiver/Diseases-Conditions/Cryopyrin-AssociatedAutoinflammatory-Syndrome-CAPS-Juvenile#sthash.H5tmcP6g
.dpuf (last visited June 7, 2018).
23

59
secretions to become thick and sticky. Instead of acting
as a lubricant, the secretions plug up tubes, ducts and
passageways, especially in the lungs and pancreas.” 25
Thus, cystic fibrosis is a physical impairment that
substantially limits the major life activities of, inter alia,
breathing and operation of the respiratory and digestive
functions, making it a disability under the ADA. See, e.g.,
Save Our Summers v. Washington State Dept. of Ecology,
E.D.Wash.1999, 132 F.Supp.2d 896 (children suffering
from severe respiratory problems as result of their severe
asthma and allergies and cystic fibrosis had disabilities for
purposes of ADA). CVS Caremark requires drugs for
cystic fibrosis and its related conditions to be obtained
only through the Program:
o
Bethkis; Kitabis; Pak; Pulmozyme; Tobi;
Tobi Podhaler; Obramycin; and Nebulizer.
•
Cystinosis, Homocystinuria, Phenylketonuria
(PKU), and Tyrosinemia: are rare genetic diseases
where the body cannot metabolize certain amino acids,
causing the amino acids to accumulate in various organs
of the body. These diseases “lead[] to widespread tissue
and organ damage[,]” 26 affect the “kidneys, eyes, liver,
muscles, pancreas, brain,” 27 “connective tissue, muscles,
central nervous system (CNS), and cardiovascular
Mayoclinic.org, Diseases and Conditions, Cystic Fibrosis,
Definition,
http://www.mayoclinic.org/diseases-conditions/cysticfibrosis/basics/definition/con-20013731 (last June 7, 2018).
26
Medscape.com,
Cystinosis,
Practice
Essentials,
http://emedicine.medscape.com/article/981650-overview (last visited
June 7, 2018).
27
Cystinosis.org,
Symptoms
and
Treatment,
https://cystinosis.org/what-is-cystinosis/symptoms-treatment
(last
visited June 7, 2018).
25

60
system”28 and cause “intellectual disability, delayed
development, behavioral, emotional, and social problems,
psychiatric disorders, and neurological problems that may
include seizures.” 29 Thus, cystinosis, homocystinuria,
PKU, and tyrosinemia are physical or mental
impairments that substantially limit the major life
activities of, inter alia, seeing and operation of the brain,
neurological, and musculoskeletal functions, making them
disabilities under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires cystinosis homocystinuria, PKU,
and tyrosinemia drugs to be obtained only through the
Program:
o

Cystagon and Kuvan.

•
Endometriosis: is a painful disorder in which the
tissue that lines in the inside of the uterus grows outside
the uterus, commonly involving the ovaries, fallopian
tubes and the tissues lining the pelvis. The displaced
tissue thickens, breaks down and bleeds with each
menstrual cycle but is trapped because it is unable to exit
the body, which can lead to the formation of cysts, scar
tissue, and adhesions. 30 Complications and symptoms of
endometriosis are infertility, ovarian cancer, excessive
bleeding, and painful menstruation, bowel movements
Wikipedia.org, Homocystinuria, https://en.wikipedia.org
/wiki/Homocystinuria (last visited June 7, 2018).
29
Mayoclinic.org, Diseases and Conditions, Phenylketonuria,
Symptoms, http://www.mayoclinic.org/diseases-conditions
/phenylketonuria/basics/symptoms/con-20026275 (last visited June 7,
2018).
30
Mayoclinic.org, Diseases and Conditions, Endometriosis
Overview, https://www.mayoclinic.org/diseases-conditions
/endometriosis/symptoms-causes/syc-20354656 (last visited June 7,
2018).
28

61
and urination. Thus, endometriosis is a physical or mental
impairment that substantially limits the major life
activities of, inter alia, women’s reproductive functions,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires endometriosis
drugs to be obtained only through the Program:
Depot.

o

Lupaneta Pack; Lupron; and Lupron

•
Epilepsy (includes all “seizure disorders”): is a
“neurological disorder … characterized by unpredictable
seizures and can cause other health problems… Epilepsy
is a spectrum condition with a wide range of seizure
types.” 31 Thus, epilepsy is a physical impairment that
substantially limits the major life activities of, inter alia,
the operation of the musculoskeletal and neurological
functions, making it a disability under the ADA. See, e.g.,
Smith v. Strayer Univ. Corp., 79 F.Supp.3d 591 (E.D. Va.
2015) (university employee who suffered from seizure
disorder was an individual with a disability under the
ADA since seizures were physical or mental impairment
that substantiality limited one or more of employee’s
major life activities). CVS Caremark requires drugs for
epileptic seizure disorders to be obtained only through the
Program:
o

H. P. Acthar; 32 Sabril Pwd; and Sabril Tabs.

•
Familial hypercholesterolemia: is a rare genetic
disorder that “causes LDL (“bad’) cholesterol level to be
Epilepsy.com, Epilepsy Foundation, What is Epilepsy?,
http://www.epilepsy.com/learn/epilepsy-101/what-epilepsy
(last
visited June 7, 2018).
32
Epilepsy medications are also used to treat other disabilities
such as Lupas.
31

62
very high. The condition begins at birth and can cause
heart attacks at an early age.” 33
Thus, familial
hypercholesterolemia is a physical impairment that
substantially limits the major life activity of, inter alia,
the operation of the circulatory function, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS
Caremark
requires
drugs
for
familial
hypercholesterolemia to be obtained only through the
Program:
o

Kynamro.

•
Gout: is a complex form of arthritis that affects
one’s joints. 34 Gout is characterized by sudden sensations,
which, at times, can limit one’s range of motion. 35 Thus,
gout is a physical impairment that substantially limits the
major life activities of, inter alia, physical mobility,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires gout drugs to be
obtained only through the Program:
o

Krystexxa.

•
Growth hormone deficiency:
“means the
pituitary gland does not make enough growth hormone….
The pituitary gland is located at the base of the brain [and]
controls the body’s balance of hormones [and] makes

Nlm.nih.gov, U.S. National Library of Medicine, Medline
Plus, Medical Encyclopedia, Familial hypercholesterolemia,
https://www.nlm.nih.gov/medlineplus/ency/article/000392.htm (last
visited June 7, 2018).
34
Mayoclinic.org,
Diseases
and
Conditions,
Gout,
https://www.mayoclinic.org/diseases-conditions/gout/symptomscauses/syc-20372897 (last visited June 7, 2018).
35
Id.
33

63
growth hormone.” 36 Thus, a growth hormone deficiency
is a physical impairment that substantially limits the
major life activity of, inter alia, the operation of the
endocrine function, making it a disability under the ADA.
See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark requires
drugs that treat growth hormone deficiencies and related
conditions to be obtained only through the Program:
o
Increlex;
Genotropin;
Humatrope;
Norditropin; Omnitrope; Octreotide Acetate; Saizen;
Sandostatin; Sandostatin Lar; Serostim; Somavert;
Zomacton; and Zorbtive.
•
Heart failure: “is a condition in which the heart
[cannot] pump enough blood to meet the body’s needs. In
some cases, the heart cannot fill with enough blood. In
other cases, the heart cannot pump blood to the rest of the
body with enough force. Some people have both
problems. . .heart failure is a serious condition that
requires medical care.” 37 Thus, heart failure is a physical
impairment that substantially limits the major life activity
of the operation of, inter alia, the circulatory function,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires drugs for heart
failure and its related conditions to be only obtained
through the Program:
o

Samsca.

Nlm.nih.gov, U.S. National Library of Medicine, Medline
Plus, Medical Encyclopedia, Growth hormone deficiency,
https://www.nlm.nih.gov/medlineplus/ency/article/001176.htm (last
visited June 7, 2018).
37
Nhlbi.nih.gov, U.S. Department of Health and Human
Services, National Heart, Lung, and Blood Institute, What is Heart
Failure?,
https://www.nhlbi.nih.gov/health/health-topics/topics/hf
(last visited June 7, 2018).
36

64
•
Hepatitis: Hepatitis B is “a serious liver infection
caused by the hepatitis B virus (HBV). For some people,
hepatitis B infection becomes chronic, meaning it lasts
more than six months. Having chronic hepatitis B
increases [the] risk of developing liver failure, liver cancer
or cirrhosis — a condition that causes permanent scarring
of the liver.” 38 Similarly, Hepatitis C is a serious liver
infection caused by a virus, which, “[u]nless successfully
treated with medication … can cause other serious health
problems, such as cirrhosis, liver cancer and liver
failure.” 39 Thus, hepatitis (B and C) is a physical
impairment that substantially limits the major life
activities of, inter alia, the operation of the digestive,
hemic and circulatory functions and an individual organ
within a body system (liver), making it a disability under
the ADA. See, e.g., Carter v. Pathfinder Energy Services,
Inc., C.A.10 (Wyo.) 2011, 662 F.3d 1134 (employee who
had diabetes and hepatitis C had physical impairment, as
required to be considered disabled under ADA, since
these diseases affected his digestive and circulatory
systems); Teeter v. Lofthouse Foods, 691 F.Supp.2d 1314
(D. Utah 2010) (hepatitis C was a “physical impairment”
within meaning of the ADA, as it was a virus that infected
the blood and affected the hemic system). CVS Caremark
requires drugs for hepatitis B and C and related
conditions to be obtained only through the Program:

Mayoclinic.org, Diseases and Conditions, Hepatitis B,
Definition, http://www.mayoclinic.org/diseases-conditions/hepatitisb/basics/definition/con-20022210 (last visited June 7, 2018).
39
Hepc.liverfoundation.org,
What
is
Hepatitis
C?,
Complications of Chronic Hepatitis C, http://hepc.liverfoundation.org
/what-is-hepatitis-c/what-can-happen-complications-of-hep-c/
(last
visited June 7, 2018).
38

65
o
Baraclude; Daklinza Epclusa; Epivir Hbv;
Epivir Hbv Solution; Gamastan S/D; Harvoni; Hepsera;
Intron-A; Mavyret; Moderiba; Olysio; Pegasys Peg;
Intron; Rebetol; Rebetol Solution; Ribasphere; Ribatab:
Sovaldi: Technivie; Vemlidy; Viekira Pak; Viread; Vosevi;
Zepatier Nabi-Hb; Hyperhep B; and Hepagam B.
•
Hemophilia A: is a condition in which “blood does
[not] clot normally. That means [the] body has problems
stopping bleeding, both outside and inside [the] body.”40
Thus, Hemophilia A is a physical impairment that
substantially limits the major life activity of, inter alia,
the operation of the hemic and circulatory functions,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii).
CVS Caremark requires drugs for
Hemophilia A and its related conditions to be obtained
through the Program:
o
Advate; Alphanate; Adynovate; Afstyla;
Eloctate; Hemlibra; Kovaltry; Novoeigh;t Nuwiq; Obizur;
Riastap; Tretten; Vonvendi; Fibryga; Feiba Nf; Helixate
Fs; Hemofil M; Humate-P; Koate-Dvi; Kogenate Fs;
Monoclate-P; Novoseven Rt; Recombinate; Stimate;
Wilate; and Xyntha.
•
Hemophilia B: is a bleeding condition is which
people bleed longer than normal. “Bleeds can occur
internally, into joints and muscles, or [] from minor cuts,
dental procedures or trauma.” 41 Thus, Hemophilia B is a
Webmd.com,
A
to
Z
Guides,
Hemophilia
A,
http://www.webmd.com/a-to-z-guides/hemophilia-a (last visited June
7, 2018).
41
Hemophilia.org, Types of Bleeding Disorders, Hemophilia B,
https://www.hemophilia.org/Bleeding-Disorders/Types-of-BleedingDisorders/Hemophilia-B (last visited June 7, 2018).
40

66
physical impairment that substantially limits the major
life activities of, inter alia, the operation of the hemic and
circulatory functions, making it a disability under the
ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark
requires drugs for Hemophilia B and its related
conditions to be obtained only through the Program:
o
Alphanine Sd; Alprolix; Bebulin; Benefix;
Idelvion; Ixinity; Mononine; Profilnine Sd; Rebinyn; and
Rixubis.
•
Hereditary angioedema (HAE): “is a rare,
autosomal dominantly inherited blood disorder that
causes episodic attacks of swelling that may affect the
face, extremities, genitals, gastrointestinal tract and
upper airways.” 42 Thus, HAE is a physical impairment
that substantially limits the major life activities of, inter
alia, the operation of the hemic, genitourinary,
reproductive, digestive, and respiratory functions,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires drugs for HAE
and related conditions to be obtained only through the
Program:
o
Berinert; Cinryze; Firazyr; Haegarda;
Kalbitor; and Ruconest.
•
Hereditary Factor XIII Deficiency Disease: “is
a rare, genetic bleeding disorder characterized by
deficiency of clotting factor XIII… resulting in prolonged,
uncontrolled bleeding episodes.” 43 Thus, hereditary
Wikipedia.org,
Hereditary
angioedema,
https://en.wikipedia.org/wiki/Hereditary_angioedema (last visited
June 7, 2018).
43
Rarediseases.org, Rare Disease Information, Factor XIII
Deficiency (last visited June 7, 2018).
42

67
factor XIII deficiency disease is a physical impairment
that substantially limits the major life activities of, inter
alia, the operation of the hemic and circulatory functions,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii).
CVS Caremark requires drugs for
hereditary factor XIII deficiency disease and its related
conditions to be obtained only through mail-order:
o

Corifact.

•
Severe Cholesterol: is a condition that causes
fatty deposits in the blood vessels that make it difficult for
blood to flow through the arteries and can increase the
risk of heart disease. 44 Thus, high cholesterol is a physical
impairment that substantially limits the major life activity
of, inter alia, the operation of the circulatory function,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii). CVS Caremark requires drugs for high
cholesterol and its related conditions to be obtained only
through the Program:
o

Praluent and Repatha.

•
Huntington’s disease: is “an inherited disease
that causes the [degeneration] of nerve cells in the brain…
[and] has a broad impact on a person’s functional abilities
and usually results in movement, thinking (cognitive) and
psychiatric disorders.” 45 Thus, Huntington’s disease is a
physical or mental impairment that substantially limits
Mayoclinic.org, Diseases and Conditions, High Cholesterol,
https://www.mayoclinic.org/diseases-conditions/high-bloodcholesterol/symptoms-causes/syc-20350800 (last visited June 7, 2018).
45
Mayoclinic.org, Diseases and Conditions, Huntington’s
disease, Definition, http://www.mayoclinic.org/diseases-conditions
/huntingtons-disease/basics/definition/con-20030685 (last visited June
7, 2018).
44

68
the major life activities of, inter alia, performing manual
tasks, walking, standing, sitting, reaching, lifting,
bending, speaking, learning, reading, concentrating,
thinking, communicating, interacting with others, and
working, and operating neurological, brain, and
musculoskeletal functions, making it a disability under the
ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark
requires drugs for Huntington’s disease to be obtained
only through the Program:
o

Tetrabenazine and Xenazine.

•
Hyperparathyroidism:
“is an excess of
parathyroid hormone in the bloodstream due to
overactivity to one of more of the body’s four parathyroid
If left untreated, complications include
glands.” 46
osteoporosis, kidney stones, cardiovascular disease, and
neonatal
hypoparathyroidism.
Thus,
hyperparathyroidism is a physical impairment that
substantially limits the major life activity of, inter alia,
the operation of the parathyroid glands, bone health, and
circulatory function, making it a disability under the ADA.
See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark requires
drugs for hyperparathyroidism and its related conditions
to be obtained only through the Program:
o

Parsabiv and Sensipar.

•
Hypoparathyroidism: is a condition in which the
body secretes abnormally low levels of parathyroid
hormone, which is necessary to regulate and maintain a

Mayoclinic.org,
Diseases
and
Conditions,
Hyperparathyroidism
Overview
https://www.mayoclinic.org
/diseases-conditions/hyperparathyroidism/symptoms-causes/syc20356194 (last visited June 7, 2018).
46

69
balance of calcium and phosphorus in the body. 47 If left
untreated, complications include prolonged and painful
spasms in the hands and fingers; tingling sensations in the
lips, tongue, fingers and toes; seizures; malformed teeth;
kidney damage; heart failure; stunted growth; slow
mental development in children; and cataracts. Thus,
hypoparathyroidism is a physical impairment that
substantially limits the major life activity of, inter alia,
the operation of the parathyroid glands and nerve, limb,
digit, and circulatory functions, making it a disability
under the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS
Caremark requires drugs for hypoparathyroidism and its
related conditions to be obtained only through the
Program:
o

Natpara.

•
Idiopathic Pulmonary Fibrosis: “is a disease in
which tissue deep in [the] lungs becomes thick and stiff, or
scarred, over time.” 48 As a result, the lungs are unable to
move oxygen into the bloodstream. Once diagnosed, life
expectancy is three to five years. Thus, idiopathic
pulmonary fibrosis is a physical impairment that
substantially limits the major life activity of, inter alia,
the respiratory and circulatory functions, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires drugs for idiopathic pulmonary
fibrosis and its related conditions to be obtained only
Mayoclinic.org,
Diseases
and
Conditions,
Hypoparathyroidism Overview https://www.mayoclinic.org/diseasesconditions/hypoparathyroidism/symptoms-causes/syc-20355375 (last
visited June 7, 2018).
48
Nhlbi.nih.gov, Health Topics, Idiopathic Pulmonary Fibrosis,
https://www.nhlbi.nih.gov/health-topics/idiopathic-pulmonaryfibrosis (last visited June 7, 2018).
47

70
through the Program:
o

Esbriet and Ofev.

•
Immune
(Idiopathic)
Thrombocytopenic
Purpura (ITP): is disorder that does not allow the body
to produce adequate blood cell fragments called
platelets. 49 “Without enough platelets, bleeding can occur
inside the body (internal bleeding) or underneath or from
the skin (external bleeding).”50 Thus, ITP is a physical
impairment that substantially limits the major life
activities of, inter alia, the body’s normal function of
clotting blood, making it a disability under the ADA. See
29 C.F.R. § 1630.2(j)(iii). CVS Caremark requires ITP
drugs to be obtained only through the Program:
o
Bivigam; Carimune Nf; Flebogamma Dif;
Gamastan S/D; Gammagard Liquid Gammagard S/D;
Gammaplex; Hyperrho S/D; Micrhogam; Octagam;
Privigen; Rhogam; Rhophylac; Varizig; Nplate; And
Promacta.
•
Increased Calcium in Blood (Hypercalcemia):
“is a condition in which the calcium level in [the] blood is
above normal… [which] can weaken [the] bones, create
kidney stones, and interfere with how [the] heart and
brain work.”51 Thus, increased calcium in the blood is a
physical impairment that substantially limits the major
Nhlbi.nih.gov, U.S. Department of Health and Human
Services, National Heart, Lung, and Blood Institute, Health Topics,
Immune
Thrombocytopenia,
https://www.nhlbi.nih.gov/healthtopics/immune-thrombocytopenia (last visited June 7, 2018)
50
Id.
51
Mayoclinic.org, Diseases and Conditions, Hypercalcemia Overview,
https://www.mayoclinic.org/diseases-conditions/hypercalcemia
/symptoms-causes/syc-20355523 (last visited June 7, 2018).
49

71
life activity of, inter alia, bone health, kidney function and
the operation of the circulatory function, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires drugs for increased calcium in
the blood and its related conditions to be obtained only
through the Program:
o

Sensipar.

•
Iron Overload: is an excess of iron in the body
resulting from either a genetic disease or repeated blood
transfusions to treat other debilitating conditions. Excess
iron can poison organs, leading to cancer, cirrhosis, heart
attack or heart failure, diabetes mellitus, osteoarthritis,
osteoporosis, metabolic syndrome, hypothyroidism,
hypogonadism, premature death, and can accelerate
neurodegenerative diseases like Alzheimer’s, early-onset
Parkinson’s, Huntington’s, epilepsy and multiple
sclerosis.” 52 Thus, iron overload is a physical or mental
impairment that substantially limits the major life
activities of, inter alia, the operation of the brain,
neurological, normal cell growth, endocrine, circulatory,
and musculoskeletal functions, making it a disability
under the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS
Caremark requires drugs for iron overload and related
conditions to be obtained only through the Program:
o
Jadenu.

Desferal;

Deferoxamine;

Exjade;

and

•
Leukemia: “is cancer of the body’s blood-forming
tissues, including the bone marrow and the lymphatic
system[,]” which causes the bone marrow to produce
Irondisorders.org,
Iron
Overload,
http://www.irondisorders.org/iron-overload (last visited June 7, 2018).

52

72
white blood cells that do not function properly. 53 Thus,
leukemia is a physical or mental impairment that
substantially limits the major life activities of, inter alia,
the operation of the immune and lymphatic functions,
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii).
CVS Caremark requires drugs for
leukemia and related conditions to be obtained only
through the Program:
o
Imatinib Mesylate; Idhifa; Intron- A;
Oncaspar; and Rydapt.
•
Medical Infertility: “is when [one] cannot get
pregnant after having unprotected, regular sex for six
months to one year.” 54 Studies show that “infertility in
most cultures remains associated with social stigma and
taboo just like the social model of disability.” 55 Thus,
medical infertility is a physical and mental impairment
that substantially limits the major life activity of, inter
alia, reproduction and subjecting one to the social stigma
associated with infertility, making it a disability under the
ADA. See 29 C.F.R. § 1630.2(j)(iii). See e.g., Erickson v.
Board of Gov. of State Colleges N.D. Illl. 1995, 911 F.
Supp. 316, 321 (holding that infertility is a physical
impairment that substantially limits a major life activity).
Mayoclinic.org, Diseases and Conditions, Leukemia
Overview, https://www.mayoclinic.org/diseases-conditions/leukemia
/symptoms-causes/syc-20374373 (last visited June 7, 2018).
54
Webmd.com, Infertility and Reproduction, Understanding
InfertilitySymptoms,
https://www.webmd.com/infertility-andreproduction/guide/understanding-infertility-symptoms#1
(last
visited June 7, 2018).
55
Ncbi.gov, US National Library of Medicine National
Institution of Health, Infertility: Why Can’t we Classify this Inability
as
disability?,
https://www.ncbi.nlm.nih.gov/pmc/articles
/PMC3395292/ (last visited June 7, 2018)
53

73
CVS Caremark requires drugs for medical infertility and
its related conditions to be obtained only through the
Program:
o
Bravelle; Cetrotide; Follistim Aq; Gonal-F;
Menopur; Novarel; Ovidrel; Pregnyl; Chorionic;
Gonadotropin; and Ganirelix Acetate.
•
Menorrhagia:
“menstrual periods with
abnormally heavy or prolonged bleeding.”56 An individual
who suffers from Menorrhagia cannot continue with usual
activities while on their period because the abnormal
blood loss results in surmounting cramping. Thus,
Menorrhagia is a physical or mental impairment that
substantially limit the major life activities of, inter alia,
continuing normal physical activities, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires drugs that treat Menorrhagia to
be obtained only through the Program:
Skyla.

o

Kyleena; Liletta; Mirena; Nexplanon; and

•
Multiple Sclerosis (MS): is “an unpredictable,
often disabling disease of the central nervous system that
disrupts the flow of information within the brain, and
between the brain and body.” 57 Thus, MS is a physical
impairment that substantially limits the major life activity
of, inter alia, the operation of the neurological function,
Mayclinic.org, Patient Care and Health Information,
Diseases and Conditions, Menorrhagia,https://www.mayoclinic.org
/diseases-conditions/menorrhagia/symptoms-causes/syc-20352829
(last visited June 7, 2018).
57
Nationalmssociety.org, National Multiple Sclerosis Society,
What is MS?, http://www.nationalmssociety.org/What-is-MS (last
visited June 7, 2018).
56

74
making it a disability under the ADA. See 29 C.F.R.
§ 1630.2(j)(iii); see, e.g., Gaylor v. Greenbriar of
Dahlonega Shopping Center, Inc., 975 F. Supp. 2d 1374
(N.D. Ga. 2013) (customer suffering from MS was
disabled within meaning of ADA, since MS is a condition
that, at a minimum, substantially limited the individual’s
neurological functions, and as a result of his condition, he
lived in pain which made it difficult, although not
impossible, for him to walk); Feldman v. Law
Enforcement Associates Corp., 955 F.Supp.2d 528
(E.D.N.C. 2013) (employee who suffered from MS was
disabled within meaning of ADA). CVS Caremark
requires drugs for MS and its related conditions to be
obtained only through the Program:
o
Ampyra; Aubagio; Avonex; Betaseron;
Copaxone; Extavia; Gilenya; Glatopa; H.P. Acthar;
Lemtrada; Ocrevus; Plegridy; Rebif; Tecfidera; and
Tysabri.
•
Opioid Dependency: “is a primary, chronic
disease of brain reward, motivation, memory and related
circuitry.” 58 Opioid dependency is a chronic disease, and
without treatment or participation in rehabilitation,
addiction is debilitating “and can result in disability or
premature death.” 59 Thus, opioid dependency is a
physical or mental impairment that substantially limits
the major life activity of, inter alia, consistently
abstaining from opioids, control of one’s behavior, and
non-impaired decision execution, 60 making it a disability
Asam.org, American Society of Addiction Medicine,
Resources, Definition of Addiction, https://www.asam.org/resources
/definition-of-addiction (last visited June 7, 2018).
59
Id.
60
Id.
58

75
under the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS
Caremark requires drugs for opioid dependency and its
related conditions to be obtained only through the
Program:
o

Vivitrol.

•
Osteoarthritis “is when the protective cartilage on
the ends of [one’s] bones wears down over time.”
Osteoarthritis often limits one’s ability to walk, bend, lift
objects, or climb. Thus, Osteoarthritis are physical
impairments that substantially limit the major life
activities of, inter alia a, physical mobility, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
See Cody v. County of Nassau, 577 F. Supp. 2d 623, 639
(E.D.N.Y. 2008). (claiming that osteoarthritis limited
one’s major life activities for the purpose of the Americans
with Disabilities Act (ADA)). CVS Caremark requires
Osteoarthritis drugs to be obtained only through the
Program:
o
Durolane; Euflexxa; Gel-One; Gelsyn-3;
Genvisc 850; Hyalgan; Hymovis; Monovisc; Orthovisc;
Supartz; Synvisc; Synvisc One; and Visco-3.
•
Osteoporosis: “causes bones to become weak and
brittle — so brittle that a fall or even mild stresses like
bending over or coughing can cause a fracture.” 61 Thus,
osteoporosis is a physical impairment that substantially
limits the major life activity of inter alia, the operation of
the musculoskeletal function, making it a disability under
the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark
Mayoclinic.org, Diseases and Conditions, Osteoporosis,
Definition,
http://www.mayoclinic.org/diseases-conditions
/osteoporosis/basics/definition/con-20019924 (last visited June 7,
2018).
61

76
requires drugs for osteoporosis to be obtained only
through the Program:
o
Actimmune; Prolia;
Zoledronic Acid; and Forteo.

Tymlos;

Reclast;

•
Parkinson’s disease: Parkinson’s disease is “a
progressive disorder of the nervous system that affects
movement.” 62 Thus, Parkinson’s disease is a physical or
mental impairment that substantially limits the major life
activities of, inter alia, performing manual tasks, walking,
standing, sitting, reaching, lifting, bending, speaking,
learning,
reading,
concentrating,
thinking,
communicating, interacting with others, and working, and
operation of the neurological, brain, and musculoskeletal
functions, making it a disability under the ADA. See 29
C.F.R. § 1630.2(j)(iii). CVS Caremark requires drugs for
Parkinson’s disease and its related conditions to be
obtained only through the Program:
o

Apokyn; Northera; and Nuplazid.

•
Primary immunodeficiency diseases (PI): “are
a group of more than 250 rare, chronic disorders in which
part of the body’s immune system is missing or functions
improperly. While not contagious, these diseases are
caused by hereditary or genetic defects, and, although
some disorders present at birth or in early childhood, the
disorders can affect anyone, regardless of age or gender.
Some affect a single part of the immune system; others
may affect one or more components of the system. And
while the diseases may differ, they all share one common
Mayoclinic.org, Diseases and Conditions, Parkinson’s
disease, Definition, http://www.mayoclinic.org/diseases-conditions
/parkinsons-disease/basics/definition/con-20028488 (last visited June
7, 2018).
62

77
feature: each results from a defect in one of the functions
of the body’s normal immune system.” 63 Thus, PIs are
physical impairments that substantially limit the major
life activity of, inter alia, operating immune function,
making them disabilities under the ADA. CVS Caremark
requires drugs for PIs and related conditions to be
obtained only through the Program:
o
Bivigam;
Carimune
Nf;
Cuvitru;
Flebogamma Dif; Gamastan S/D; Gammaked; Gamunex
C Hizentra; and Hyqvia.
•
Retinal Diseases: “vary widely, but most can
affect any part of your retina, a thin layer of tissue on the
inside back wall of your eye. [One’s] retina organizes
visual information and sends it to their brain through their
optic nerve, allowing them to see.”64 Symptoms associated
with Retinal diseases include blurred or distorted vision,
defective vision, or lost vision. 65 Thus, Retinal Diseases
are physical and mental impairments that substantially
limit the major life activities of, inter alia, enjoying clear
vision, making them disabilities under the ADA. See 29
C.F.R. § 1630.2(j)(iii). CVS Caremark requires Retinal
Diseases drugs to be obtained only through the Program:
o
Eylea; Iluvien; Lucentis;
Ozurdex; Retisert; and Visudyne.

Macugen;

Primaryimmune.org, Immune Deficiency Foundation, About
Primary Immunodeficiencies, http://primaryimmune.org/aboutprimary-immunodeficiencies/ (last visited June 7, 2018).
64
Mayoclinic.org, Patient Cares and Health Information, Diseases
and Conditions, Retinal Diseases, https://www.mayoclinic.org
/diseases-conditions/retinal-diseases/symptoms-causes/syc-20355825
(last visited June 7, 2018)
65
Id.
63

78
•
Rheumatoid Arthritis (RA):
“is a chronic
inflammatory disorder that can affect more than just
joints. In some people, the condition also can damage a
wide variety of body systems, including the skin, eyes,
lungs, heart and blood vessels. An autoimmune disorder,
[RA] occurs when your immune system mistakenly
attacks your own body’s tissues. [RA] affects the lining of
your joints, causing a painful swelling that can eventually
result in bone erosion and joint deformity.
The
inflammation associated with [RA] is what can damage
other parts of the body as well.… [S]evere [RA] can still
cause physical disabilities.”66 Thus, RA is a physical
impairment that substantially limits the major life
activities of, inter alia, performing manual tasks and
operation of the musculoskeletal functions, making it a
disability under the ADA. See, e.g., Moore v. J.B. Hunt
Transp., Inc., 221 F.3d 944, 951 (7th Cir. 2000) (court
“believe[s] [RA] falls within the definition of impairment
in the regulations”). CVS Caremark requires RA drugs
to be obtained only through the Program:
o
Acthar H.P.; Actemra; Cimzia; Enbrel;
Humira; Inflectra; Kevzara; Orencia; Otrexup; Rasuvo;
Remicade; Renflexis; Rituxan; Simponi; Simponi Aria;
Xeljanz; and Neoral.
•
Severe Forms of Hypertension – Malignant
Hypertension, Pulmonary Arterial Hypertension
(PAH), Pulmonary Hypertension (PH): Malignant
hypertension is “extremely high blood pressure that
develops rapidly and causes some type of organ
Mayoclinic.org, Diseases and Conditions, Rheumatoid
arthritis, Overview, http://www.mayoclinic.org/diseases-conditions
/rheumatoid-arthritis/home/ovc-20197388 (last visited June 7, 2018).
66

79
damage.” 67 PAH or PH is “[h]igh blood pressure in the
lungs … [It] is a chronic and life- changing disease that
can lead to right heart failure if left untreated.” 68 Thus,
malignant hypertension and PAH/PH are physical
impairments that substantially limit the major life
activities of, inter alia, breathing and operating organs
and the respiratory and circulatory functions, making
them disabilities under the ADA.
See 29 C.F.R.
§ 1630.2(j)(iii).
CVS Caremark requires malignant
hypertension and PAH/PH drugs to be obtained only
through the Program:
o
Adcirca; Adempas; Flolan; Letairis;
Opsumit; Orenitram; Remodulin; Revatio; Tracleer;
Tyvaso; Uptravi; Veletri; Ventavis; Epoprostenol Sodium;
and Sildenafil Citrate.
•
Short Bowel Syndrome: “is a group of problems
related to poor absorption of nutrients. [It] typically
occurs in people who have had at least half of their small
intestine removed and sometimes all or part of their large
intestine removed; significant damage of the small
intestine; poor motility, or movement, inside the
intestines…. People with short bowel syndrome cannot
absorb enough water, vitamins, minerals, protein, fat,
calories, and other nutrients from food.” 69 Thus, short
Webmd.com, Hypertension/High Blood Pressure Health
Center,
Malignant
Hypertension,
http://www.webmd.com
/hypertension-high-blood-pressure/guide/what-is-malignanthypertension (last visited June 7, 2018).
68
Phassociation.org, Pulmonary Hypertension Association,
About Pulmonary Hypertension, http://www.phassociation.org
/AboutPH (last visited June 7, 2018).
69
Niddk.nih.gov, National Institute of Diabetes and Digestive
and Kidney Diseases, National Institute of Health, Short Bowel
Syndrome,
http://www.niddk.nih.gov/health-information/health67

80
bowel syndrome is a physical impairment that
substantially limits the major life activity of, inter alia,
operation of the digestive function, making it a disability
under the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS
Caremark requires drugs that treat short bowel
syndrome to be obtained only through the Program:
o

Gattex; Solesta; and Norditropin.

•
Transplant rejection: “is a process in which a
transplant recipient’s immune system attacks the
Thus, transplant
transplanted organ or tissue.” 70
rejection is a physical condition that substantially limits
the major life activities of inter alia, the operation of an
individual organ within a body system, making it a
disability under the ADA. See 29 C.F.R. § 1630.2(j)(iii).
CVS Caremark requires drugs for forms of transplant
rejection and its related conditions to be obtained only
through the Program:
o
Astagraf Xl; Cellcept; Cellcept Injectable;
Cellcept Suspension; Envarsus Xr; Gengraf; Myfortic;
Neoral; Nulojix; Prograf; Prograf Injectable; Rapamune;
Rapamune
Solution;
Sandimmune;
Zortress;
Cyclosporine; Mycophenolate Mofetil; Mycophenolate
Sodium Dr Sirolimus Tab; and Tacrolimus.
•
Type 1 Gaucher disease: is a condition that causes
“enlargement
of
the
liver
and
spleen
(hepatosplenomegaly), a low number of red blood cells
topics/digestive-diseases/short-bowel-syndrome/Pages/facts.aspx
(last visited June 7, 2018).
70
Nlm.nih.gov, U.S. National Library of Medicine, Medline
Plus, Medical Encyclopedia, Transplant rejection, https://www.nlm
.nih.gov/medlineplus/ency/article/000815.htm (last visited June 7,
2018).

81
(anemia), easy bruising caused by a decrease in blood
platelets (thrombocytopenia), lung disease, and bone
abnormalities such as bone pain, fractures, and
arthritis.”71 Thus, Type 1 Gaucher disease is a physical
impairment that substantially limits the major life
activities of, inter alia, the operation of the hemic,
respiratory, and musculoskeletal functions and the
operation of an individual organ (liver and spleen) within
a body system, making it a disability under the ADA. See
29 C.F.R. § 1630.2(j)(iii). CVS Caremark requires drugs
for Type 1 Gaucher disease and related conditions to be
obtained only through the Program:
o
Disease; Aldurazyme; Cerdelga; Cerezyme;
Elaprase; Elelyso; Fabrazyme; Kanuma; Lumizyme;
Naglazyme; Vimizim; and Vpriv.
•
Urea cycle disorders (UCDs): are rare genetic
disorders “caused by a mutation that results in a
deficiency of one of the six enzymes in the urea cycle …
responsible for removing ammonia from the blood stream.
… In [UCDs], … ammonia, a highly toxic substance,
[accumulates in the blood] resulting in hyperammonemia
(elevated blood ammonia). Ammonia then reaches the
brain through the blood, where it can cause irreversible
brain damage, coma and/or death.” 72 Thus, UCDs are
physical or mental impairments that substantially limit
the major life activities of, inter alia, operation of the
Ghr.nlm.nih.gov, Genetics Home Reference, U.S. National
Library of Medicine, National Institute of Health, Gaucher Disease,
https://ghr.nlm.nih.gov/condition/gaucher-disease (last visited June 7,
2018).
72
Nucdf.org, National Urea Cycle Disorders Foundation, What
is a Urea Cycle Disorder?, http://www.nucdf.org/ucd.htm (last visited
June 7, 2018).
71

82
hemic and brain functions, making them disabilities under
the ADA. See 29 C.F.R. § 1630.2(j)(iii). CVS Caremark
requires drugs that treat UCDs and their related
conditions to be obtained only through the Program:
o
Buphenyl;
Phenylbutyrate.

Ravicti;

and

Sodium-

95.
These
formulary
classifications
demonstrate the hypocrisy engaged in by CVS Caremark
with regard to the specialty medications at issue here. On
the one hand, CVS Caremark claims these medications
are so special in terms of their use and handling they
should be listed on the highest tier of medications in its
formulary. On the other hand, CVS Caremark requires
delivery of such medications at the lowest level of service
and interaction with persons who are not specifically
trained in the handling of such medications.
96.
When Class Members inform CVS
Caremark representatives they do not want to participate
in the Program, they are typically told they have no
choice, satisfying any requirement to exhaust
administrative remedies.
97.
The Affordable Care Act (“ACA”),
American with Disabilities Act (“ADA’), California’s
Unruh Civil Rights Act (“Unruh Act”), and other federal
and state laws outlaw deceptive acts or practices and/or
discrimination based on disability, medical condition, and
other categories. HIV/AIDS is a “disability” under the
ADA and ACA, and a “medical condition” and “disability”
under the Unruh Act.
98.
CVS Caremark’s Program improperly
reduces or eliminates benefits, breaching CVS
Caremark’s fiduciary duties to Class Members and

83
violates numerous provisions of ERISA.
CVS
Caremark’s conduct is also unlawful and unfair, and
therefore violates California Business & Professions Code
section 17200, et seq., numerous federal and state laws
detailed below, as well as privacy rights provided by the
California and U.S. Constitutions.
Defendants Exercise Discretion over Plaintiffs’
Benefits and Are Fiduciaries and Co-Fiduciaries
99.
CVS Caremark exercises discretion over
claims for prescription drug benefits for those health
benefit plans for which it administers prescription drug
benefits. Among other things, CVS Caremark exercises
discretion in establishing drug formularies, which
determine whether a given drug is classified as a specialty
drug, and, therefore, whether that drug is accessible to
Plaintiffs and class members at community retail
pharmacies. As CVS Caremark’s own website states,
“Development and management of drug formularies is an
integral component in the pharmacy benefit management
(PBM) services CVS Caremark provides to health plans
and plan sponsors.” 73
100. CVS Caremark is specifically identified in
the Summary Plan Descriptions of certain employers’
health benefit plans, including that of Lowe’s, as a
fiduciary with respect to prescription drug benefits.
101. The employers through which Plaintiffs
receive their health benefits also exercise discretion over
the prescription drug benefits of their members, including
in the selection of CVS Caremark to administer
73

https://www.caremark.com/portal/asset/FormDevMgmt.pdf.

84
prescription drugs for their members, and the election not
to offer their members the ability to opt out of the
Program.
102. The employers through which Plaintiffs
receive their health benefits also act as co-fiduciaries with
CVS. Specifically, they have entered into a series of
agreements that reduced the health benefits available to
their members and resulted in discriminatory conduct
against them, in violation of the statutes and regulations
cited in the Complaint. They did so by: (1) abdicating to
CVS Caremark responsibility over what medications are
identified as “specialty medications” in the formulary; and
(2) agreeing Plaintiffs would have no right to request
exemption from the Program by agreeing to utilize a less
costly “non-opt-out” plan option that subjects members to
the Program.
103. Amtrak, Lowe’s, and Time Warner have
each knowingly participated in CVS’s breach of its
fiduciary duties through its agreement with CVS
subjecting members of its health plan to the Program.
Further, having expressly agreed to subject its members
to the Program, each knew of CVS’s breach of its fiduciary
duties and failed to make reasonable efforts to remedy the
breach. Each also failed to prudently discharge its
fiduciary duties in choosing to subject its members to the
Program, which failure enabled CVS, also a fiduciary, to
in turn breach its fiduciary duties.
104. CVS is also a co-fiduciary of each of Amtrak,
Lowe’s, and Time Warner in that CVS participated in
subjecting members of those employers’ health plans to
the Program and, therefore, also had knowledge of the
breach by each of those employers and failed to make
reasonable efforts to remedy the breach.

85
DEFENDANTS’ CONDUCT VIOLATES
NUMEROUS STATUTORY
PROVISIONS OF FEDERAL AND STATE LAW
105. A central tenet of the ACA is to end
discrimination against patients based on their health
status, health history, or disability. For example, the
“guaranteed issue” provision of the ACA bars
discrimination on the basis of health condition, barring
companies from “impos[ing] any preexisting condition
exclusion.” 42 U.S.C. § 300gg-3. Those with HIV/AIDS
and other chronic illness stood the most to gain from the
elimination of discrimination on the basis of medical
condition.
106. Section 1557 of the ACA provides that “an
individual shall not … be excluded from participation in,
be denied the benefits of, or be subjected to discrimination
under, any health program or activity” that enters into a
“contract of insurance” with the federal government.
Section 1557 specifically delineates the design of
insurance plan benefits as a potentially discriminatory
practice. Section 1557 provides that under any health
program or activity, any part of which is receiving federal
financial assistance, or any entity established under Title
I of the ACA or its amendments, an individual shall not be
subjected to discrimination on grounds prohibited under
section 504 of the Rehabilitation Act of 1973. The
Supreme Court has specified that the relevant inquiry
under the Rehabilitation Act for determining if
discrimination has occurred is whether “meaningful
access” has been provided to individuals with disabilities.
Alexander v. Choate, 469 U.S. 287 (1985). The meaningful
access inquiry asks “whether those with disabilities are as
a practical matter able to access benefits to which they are

86
legally entitled.” Henrietta D. v. Bloomberg, 331 F.3d
261, 273 (2003). As detailed herein, the Program does not
provide meaningful access to HIV/AIDS medications.
107. The Department of Health and Human
Services (“HHS”), Office for Civil Rights (OCR) made
clear in its comments on its most recent set of regulations
implementing the ACA that Section 1557 is “not intended
to apply lesser standards for the protection of individuals
from discrimination than the standards under Title VI,
Title IX, Section 504, the Age Act, or the regulations
issued pursuant to those laws, all of which are
incorporated into Section 1557 by reference.” 81 Fed.
Reg. 31381 (2016) (discussing 45 C.F.R. § 92.3 as adopted).
Section 504 of the Rehabilitation Act, expressly
incorporated into Section 1557, recognizes private rights
of action for discrimination based on disparate impact,
which does not require a discriminatory motive. See
Alexander, 469 U.S. at 299 and International Broth. of
Teamsters v. U.S., 431 U.S. 335, n.15 (1977). This was
made explicit by the Department of Health and Human
Services: “OCR interprets Section 1557 as authorizing a
private right of action for claims of disparate impact
discrimination on the basis of any of the criteria
enumerated in the legislation.” 81 Fed. Reg. 31440 (2016).
108. As discussed more fully below, CVS
Caremark’s implementation of a limited network of
specialty pharmacies is only applicable to those enrollees
who require specialty medications. Enrollees with
HIV/AIDS, who must always be conscious of the privacy
and other concerns that accompany the condition, are
significantly, adversely, and disproportionately impacted
by the Program.
109.

The Americans with Disabilities Act, 42

87
U.S.C. section 12182, subdivision (a), provides:
No individual shall be discriminated against
on the basis of disability in the full and
equal enjoyment of the goods, services,
facilities, privileges, advantages, or
accommodations of any place of public
accommodation by any person who owns,
leases (or leases to), or operates a place of
public accommodation.
(Emphasis added.)
110. For purposes of the ADA, “[t]he definition
of disability in this chapter shall be construed in favor of
broad coverage of individuals under this chapter, to the
maximum extent permitted by the terms of this chapter.”
(42 U.S.C. § 12102(4)(A).)
111. The U.S. Supreme Court has recognized
HIV/AIDS as a “disability” subject to the ADA. Bragdon
v. Abbott, 118 524 U.S. 624, 655 (1998).
112. A pharmacy is a “place
accommodation” recognized by the ADA.
§ 12181(7)(F).

of public
42 U.S.C.

113. The Ninth Circuit has found that a
defendant “operates a place of public accommodation”
including if that defendant exerts “control” over a place of
public accommodation, for example as a result of a
financial or contractual relationship between the
defendant and the place of public accommodation. See,
e.g., Lentini v. Cali. Ctr. for the Arts, 370 F.3d 837, 849
(9th Cir. 2004).
114. The Program also violates the ADA.
Defendants’ intentionally discriminatory actions have

88
denied Plaintiffs and members of the Class full and equal
enjoyment of the benefits, services, facilities, privileges,
advantages, and accommodations under their health
plans’ prescription drug benefit. These changes to Class
Members’ health plans’ prescription drug benefit puts
Class Members’ health and privacy at risk and reduce or
effectively eliminate their drug benefit for subscribers
prescribed HIV/AIDS Medications forced to obtain those
medications solely using the limited options available to
Class Members under the Program without an option to
opt-out and use the pharmacy and pharmacist of their
choice, or not being properly informed they do not need to
use the Program to obtain such medications. These
changes have made, or will make, HIV/AIDS Medications
unaffordable at community pharmacies where expert
pharmacists provide life-saving advice and counseling on
which Plaintiffs and Class Members have come to rely.
Therefore, based on their disability Plaintiffs and Class
Members are subject to discriminatory treatment that
threatens their health and their privacy.
115. Defendants’ conduct also violates 45 C.F.R.
156.122(e), which, effective January 1, 2017 prohibits
health plans from requiring the use of mail order for the
delivery of medications, including the medications at issue
here for the treatment of HIV/AIDS. As a result of the
violation of this regulation, Defendants are engaging in a
series of illegal transactions that would violate the ACA,
the ADA, ERISA and the state law claims asserted
herein.
116. Article I, section 1 of the California
Constitution guarantees “all people” the right to privacy:
All people are by nature free and
independent and have inalienable rights.

89
Among these are enjoying and defending
life and liberty, acquiring, possessing, and
protecting property, and pursuing and
obtaining safety, happiness, and privacy.
The U.S. Constitution impliedly also recognizes a
fundamental right to privacy. As detailed above, the
Program violates Class Members’ inalienable right to
privacy by eliminating their choice to keep their medical
condition private, by requiring public delivery of their
medications by someone they do not know and from CSP
personnel who may not be sensitive to or have extensive
knowledge of their condition.
117. The California Unruh Civil Rights Act
provides that, “[a]ll persons within the jurisdiction of this
state are free and equal, and no matter what their sex,
race, color, religion, ancestry, national origin, disability,
medical condition, genetic information, marital status, or
sexual orientation are entitled to the full and equal
accommodations, advantages, facilities, privileges, or
services in all business establishments of every kind
whatsoever.” (Cal. Civ. Code § 51(b), emphasis added.)
118. Under the Unruh Act, “‘Disability’ means
any mental or physical disability as defined in sections
12926 and 12926.1 of the Government Code.” Cal. Civ.
Code § 51(e)(1). “Physical and mental disabilities include,
but are not limited to, chronic or episodic conditions such
as HIV/AIDS, hepatitis, epilepsy, seizure disorder,
diabetes, clinical depression, bipolar disorder, multiple
sclerosis, and heart disease.” Cal. Gov. Code § 12926.1(c)
(emphasis added).
119. The Unruh Act prohibits business
establishments from “engaging in any form of arbitrary

90
discrimination.” O’Connor v. Village Green Owners
Assn., 33 Cal.3d 790, 794 (1983). The Unruh Act
addresses concerns “not only with access to business
establishments, but with equal treatment of patrons in all
aspects of the business.” Koire v. Metro Car Wash. 40
Cal.3d 24, 29 (1985) (emphasis added). That Act is given a
liberal construction with a view to effectuating its
purposes.
120. The Program violates the Unruh Act, as the
Program targets individuals with specific disease states.
Here, Defendants specifically target certain “specialty
medicines” that are used to treat serious and chronic
health conditions. In fact, due to the specialized nature of
these targeted medications, this policy change
predominantly impacts subscribers with serious medical
conditions, and specifically for purposes of this Complaint,
persons with HIV/AIDS. Furthermore, the Unruh Act
requires “equal accommodations, advantages, facilities,
privileges, or services in all business establishments of
every kind whatsoever” for all persons regardless of
“disability [or] medical condition.” The Program denies
equal use of and access to community pharmacists and
denies prescription drug benefits due for only these
people.
121. The California Legislature has declared
that the State of California has an interest in ensuring
that all people have ready and reasonably available access
to HIV/AIDS Medications:
(a) State-of-art knowledge regarding
treatment of people infected with the human
immunodeficiency virus (HIV) indicates
that active HIV infection (AIDS) can be a
manageable, though chronic, condition with

91
the use of drugs such as zidovudine (AZT),
aerosolized pentamidine, and ganciclovir.
AIDS experts across the nation agree that
early intervention with these drugs can
prolong life, minimize the related
occurrences of more serious illnesses,
reduce more costly treatments, and
maximize the HIV-infected person’s vitality
and productivity.
(b) For reasons of compassion and
cost effectiveness, the State of California
has a compelling interest in ensuring that
its citizens infected with the HIV virus have
access to these drugs.
California Health & Safety Code § 120950 (emphasis
added).
122. 45 C.F.R. Section 156.122(e)(1), adopted as
part of the Affordable Care Act, provides that on or after
January 1, 2017, a health plan providing essential health
benefits (“EHB”) must have the following access
procedures: “A health plan must allow enrollees to access
prescription drug benefits at in-network retail
pharmacies, unless… [t]he drug requires special
handling, provider coordination, or patient education that
cannot be provided by a retail pharmacy.” (Emphasis
added.)
123. As set forth in detail above, the Program
violates this basic requirement, because any access to
such benefits at in-store CVS pharmacies is solely
provided as an alternate pick up location, not for any
specific interaction or advice by a pharmacist. None of the
HIV Medications fall within this exemption, as any

92
handling, coordination or education necessary for HIV
Medications can be provided by a retail pharmacy. In fact,
for the reasons detailed above, such interaction is best
provided face-to-face at a retail pharmacy, not through
some bungled bureaucratic process with poorly trained
and inexperienced front line staff.
124. This conclusion is confirmed by the Official
Comments to this federal regulation. Those comments,
which are reported at 80 Fed. Reg. 10820-22, Feb. 27,
2015, indicate that the intent of this regulation was that
enrollees be provided the option to access their
prescription drug benefit through retail pharmacies—
defined as “brick and mortar or non-mail order”
pharmacies. “This requirement would mean that the
health plan that is required to cover the EHB package
cannot have a mail-order only prescription drug
benefit.” Id. (emphasis added). The Official Comments
response goes on to state: “We also believe that making
drugs available only by mail order could discourage
enrollment by, and thus discriminate against, transient
individuals and individuals who have conditions that
they wish to keep confidential. We also believe that this
provision is important to ensure uniformity in benefit
design and consumer choice.” Id. (emphasis added). The
latter is precisely the situation that applies to HIV
Medications. In addition, based on the current system
where every major health care company has agreed not to
use mail order for these medications, the Program
actually results in a lack of uniformity in benefit design
and consumer choice. In addition, although consideration
was given to instead providing an exemption process to
permit enrollees to request the ability under certain
circumstances to utilize a retail pharmacy over mail order,

93
this was rejected: “[W]e are concerned that if we allow an
exception process, the issuer would retain the option to
deny the request, and such a process could be seen as
burdensome to the enrollee. In particular, an exception
process could be burdensome for enrollees with complex
health conditions if they had to seek an exemption request
for each of their prescription drugs that they take.” Id.
(emphasis added). Thus, the Program is contrary to the
language and intent of this specific federal regulation, and
discriminates in exactly the manner set forth in this
regulation.
125. The “specialty medication” exception
referenced above in this particular regulation was not
intended to be used so that high cost/high profit margin
drugs could only be distributed through a mail order
program under the guise of requiring special treatment,
such as claimed by CVS. As stated in the official
comments: “As part of this requirement, a health plan
may restrict access to mail order, which may include
specialty pharmacies, for a particular drug when: (1) The
FDA has restricted distribution of the drug to certain
facilities or practitioners (including physicians); or
(2) appropriate dispensing of the drug requires special
handling, provider coordination or patient education that
cannot be met by a retail pharmacy. For instance, certain
drugs have a Risk Evaluation and Mitigation Strategy
(REMS) that includes Elements to Assure Safe Use that
may require that pharmacies, practitioners or health care
settings that dispense the drug be specially certified and
that may limit access to the drugs in certain health
settings.” Few, if any, of the HIV Medications have a
REMS associated with that medication.
Indeed,
depending on the situation (e.g., Medicare or Medicaid

94
plans), CVS is required to fill prescriptions for HIV
Medications at any of their “brick and mortar” retail
locations. Thus, HIV Medications do not fall within the
strict limitations of the type of “specialty medication” that
can only be provided by mail order.
126. Defendants’ conduct also violates various
provisions of ERISA.
Defendants have failed to
appropriately distribute benefits to plan subscribers
pursuant to the terms of their ERISA plan, in violation of
29 U.S.C. section 1132(a)(1)(B).
127. Under the relevant provisions of ERISA,
benefits to plan subscribers must be distributed pursuant
to the terms of their ERISA plan and not work a reduction
or elimination of benefits in the provision of those
benefits. 29 U.S.C. § 1132(a)(1)(B). ERISA further
requires that fiduciaries not put their own interests above
their beneficiaries. 29 U.S.C. § 1132(a)(2). In fulfilling
fiduciary duties, an ERISA fiduciary must act with
undivided loyalty and prudence in managing and
administering the plans. 29 U.S.C. § 1104. In addition,
ERISA mandates that benefit plans provide full and fair
review of denied claims for patient grievances as required
by 29 U.S.C. section 1133, and provide a reasonable claims
procedure.
128. Defendants have breached their fiduciary
duties under ERISA by failing to act with undivided
loyalty and prudence in managing and administering
these health benefit plans in violation of 29 U.S.C. section
1132(a)(2). In controlling and administering the plans,
Defendants owe a duty to act solely for the benefit of
Plaintiffs, their plan members and/or the Class, as
applicable. However, Defendants have put their own
interests above their subscribers through their conduct of

95
discrimination and self-dealing by mandating the use of
CSP and not providing an opt-out right or notice thereof,
restricting choice of pharmacy to fulfill these specialty
medications, refusing to consistently accept manufacturer
rebates or discounts, forcing consumers to accept the
financial responsibility of lost or stolen shipments, and/or
keeping fees or rebates that would be paid to community
specialty pharmacies or consumers, all the time profiting
as a result thereof. Defendants have also put their own
interests before subscribers’ interests by seeking to
increase their own profits at the expense of their
subscribers’ health, as set forth above.
129. In addition, Defendants have failed to
provide full and fair review, as required by 29 U.S.C.
section 1133. Defendants have failed to provide a
reasonable procedure for subscribers who wish to opt-out
of the Program and any information regarding appeal of
any determinations to deny opt-out requests.
130. Forcing affected enrollees to participate in
the Program will cause severe detriment and irreparable
harm to Class Members, as well as the potential for
financial loss, as actually suffered by Plaintiffs. Such
conduct is continuing. Class Members either have
switched against their will to the Program or are being
threatened with the requirement to purchase their
specialty drugs through CSP in accordance with the
Program. Defendants must either agree not to continue
to implement the Program in its current form or, at a
minimum, provide Class Members the right to opt-out of
the Program.
CLASS ALLEGATIONS
131.

This action is brought by Plaintiffs on behalf

96
of themselves and all other similarly situated persons
pursuant to Federal Rules of Civil Procedure Rule 23.
Plaintiffs seek to represent the following class (the
“Class”):
All persons currently or previously enrolled
in or covered by a health plan since January
1, 2015 in which the prescription drug
benefit is or was administered by CVS
Caremark, and who: (i) obtained or may
obtain HIV/AIDS Medications; and (ii) have
been or may in the future be required to
participate in the Program with no right to
opt-out or notice thereof, but not including
individual claims for personal injury or
bodily harm.
132. The precise number and identity of Class
Members are unknown to Plaintiffs but can be obtained
from Defendants’ records. Based on CVS Caremark’s
presence nationwide, the Class numbers in thousands of
persons.
133. Common questions of law and fact
predominate over any questions affecting individual
members of the Class. Such common legal and factual
questions include the following:
(a) Whether Defendants’ implementation of
the Program as described above violates the numerous
federal and state laws and regulations detailed
throughout this Complaint;
(b) Whether Defendants engaged in an
unlawful, unfair, misleading or deceptive business act or
practice in connection with the implementation of and
statements relating to the Program;

97
(c) Whether Plaintiffs and Class Members are
entitled to damages, equitable monetary relief,
disgorgement of profits and/or restitution;
(d) Whether Plaintiffs and Class Members are
entitled to a declaration regarding their rights with
regard to their health plans’ prescription drug benefits;
and
(e) Whether Plaintiffs and Class Members are
entitled to an Order enjoining Defendants from engaging
in the conduct here at issue.
134. For the reasons set forth above, Plaintiffs’
claims are typical of the claims of the Class in that
Plaintiffs have been subjected to the practices at issue.
Additionally, as set forth above, Plaintiffs have already
expended personal resources or incurred out-of-pocket
expenses as a result of the acts and practices of
Defendants in connection with the implementation and
operation of the Program.
135. Plaintiffs are willing and prepared to serve
the Court and the proposed Class in a representative
capacity. Based on the facts detailed above, the interests
of Plaintiffs are reasonably co-extensive with and not
antagonistic to those of absent Class Members. Plaintiffs
will fairly and adequately represent and protect the
interests of the Class and have no interests adverse to or
which materially and irreconcilably conflict with the
interests of the other members of the Class.
136. Plaintiffs have engaged the services of
counsel who are experienced in complex class litigation
and the issues raised in this Complaint who will vigorously
prosecute this action, and will assert and protect the
rights of and otherwise adequately represent Plaintiffs

98
and absent Class Members.
137. To the extent applicable to certification of a
class under these circumstances, a class action is superior
to other available means for the fair and efficient groupwide adjudication of this controversy. To Plaintiffs’
knowledge, no other litigation is pending addressing the
issues raised here as against Defendants. The injuries
suffered by individual Class Members are, while
important to them, relatively small compared to the
burden and expense of individual prosecution of the
complex issues and extensive litigation needed to address
Defendants’ conduct.
138. Individualized
litigation
presents
a
potential for inconsistent or contradictory judgments. By
contrast, a class action presents far fewer management
difficulties; allows the hearing of claims that might
otherwise go unaddressed; and provides the benefits of
single adjudication, economies of scale, and
comprehensive supervision by a single court.
139. Defendants have acted or refused to act on
grounds generally applicable to the Class with regard to
implementation and terms of the Program, thereby
making appropriate provisional and final declaratory and
injunctive relief with respect to Class Members as a
whole.
FIRST CAUSE OF ACTION 74
Claim for Violation of Anti-Discrimination
Provisions of Affordable Care Act (42 U.S.C. § 18116)
140.

Plaintiffs incorporate by reference each of

Due to privacy concerns, Plaintiffs have not identified herein
which Plaintiffs are employed by which Defendants, but Plaintiffs

74

99
the preceding paragraphs as though fully set forth herein.
This claim is brought against the CVS Caremark
Defendants.
141. Class Members who are enrolled in any
health care plan subject to the Program, any part of which
received Federal financial assistance, are subject to this
Count.
142. Section 1557 of the ACA prohibits
discrimination in “any health program or activity, any
part of which is receiving Federal financial assistance,
including credits, subsidies, or contracts of insurance.”
(42 U.S.C. § 18116.) Section 1557 states that an individual
shall not, on grounds prohibited under, inter alia, section
504 of the Rehabilitation Act of 1973 (29 U.S.C § 794) be
excluded from participation in, be denied the benefits of,
or be subjected to discrimination under any” health
program or activity. (42 U.S.C. § 18116, emphasis added.)
143. CVS Caremark’s Program is a “health
program or activity … receiv[ing] Federal financial
assistance” subject to the requirements of 42 U.S.C.
section 18116. As one example of CVS’s federal funding,
CVS’s specialty and retail pharmacies participate in and
receive reimbursement from Medicare.
144. In addition, CVS Pharmacy, Inc. represents
that it is subject to section 1557 of the ACA, and under
that law:
[C]omplies with applicable Federal Civil
have provided and will provide Defendants information regarding the
identities of their employers, subject to non-disclosure agreements.
For the sake of clarity, in addition to the CVS Defendants, each
Plaintiff only asserts claims against the specific employers whose
health benefit plan covers that Plaintiff.

100
rights laws and does not discriminate on the
basis of race, color, national origin, age,
disability, or sex. CVS Pharmacy, Inc. does
not exclude people or treat them differently
because of race, color, national origin, age,
disability or sex.
See
https://www.cvs.com/bizcontent/general/CVS_
Pharmacy_Nondiscrimination_Policy.pdf,
emphasis
added).
145. HIV/AIDS has been deemed a “disability”
under both federal and state laws. Solely on the basis of
their disability, Class Members have been excluded from
participation in, have been denied the full benefits of, or
are being subjected to discrimination by being required to
participate in the Program and subject to the limitations
and discriminatory conduct set forth above, including but
not limited to being required to obtain non-specialty
medications they could otherwise obtain at the pharmacist
of their choice; being forced to use separate but unequal
methods to obtain life-sustaining medications and
inadequate facilities to do so; being forced to pay more for
such medications due to the refusal of CVS to recognize
manufacturer discounts and rebates for such medications;
being forced to be financially responsible for lost or stolen
shipments, which is only an issue due to forced
participation in the Program; and/or having their privacy
violated and social stigma exacerbated. Class Members
have not been provided meaningful access to their lifesustaining medications, and are significantly, adversely,
and disproportionately impacted by the Program.
Participation in the Program threatens their health and
privacy.
146.

As described in more detail herein,

101
Defendants’ actions of requiring subscribers to choose
between risking their health and privacy by enrolling in
the Program, or requiring patients to pay full price for
their medications at a community pharmacy where they
may receive the consultations they need and that protect
their privacy: (i) tend to exclude HIV/AIDS patients from
full participation in health care plans where the
prescription benefit is administered by CVS Caremark;
(ii) denies HIV/AIDS patients the full benefits of their
health care plans’ drug benefit; and (iii) subjects patients
with HIV/AIDS to unjust discrimination based solely on
the nature of their health condition, all in violation of the
ACA and in contradiction to Defendants’ representation
that they comply with the ACA.
147. Defendants’ actions have denied Plaintiffs
and Class Members full and/or equal enjoyment of the
benefits, services, facilities, privileges, advantages, and
accommodations available under their health care plans’
prescription drug benefit. The Program:
(a) Excludes HIV and AIDS patients from
coverage. CVS Caremark has or is continuing to threaten
to avoid providing patients appropriate coverage based on
their health status or medical condition requiring
treatment with HIV/AIDS Medications, leaving them to
either bear the costs of insurance co-pays, treatment
disruption, and loss of privacy, or pay thousands of dollars
out-of-pocket each month to purchase such medications at
their in-network community pharmacy of choice. By
requiring such patients to access their life-sustaining
medications through the Program that threatens their
health and privacy, the Program operates as a
constructive eviction from coverage and erodes Plaintiffs’
on-going ability to receive medications from the

102
pharmacist of their choice and with no right to opt-out of
the Program or clear notice thereof. Therefore, enrollees
with HIV/AIDS are impermissibly discouraged from
enrolling in health care plans for which pharmacy benefits
are administered by CVS Caremark.
(b) Denies these patients the full benefit of
their health care plans’ drug benefit. Patients who are
forced into the Program bear additional costs in time
spent navigating websites or phone menus and long hold
times, coordinating with multiple pharmacies and
pharmacists for specialty and non-specialty drugs, and
experiencing disruptions in their treatment, even in
situations where prompt access to this medication is
medically necessary. These patients also suffer from the
loss of privacy because their medications are either
shipped to their workplace or home, where they receive
regular, conspicuous deliveries, or drop shipped to a CVS
pharmacy, which raises additional privacy problems as set
forth above. Defendants’ changes to Class Members’
health plans’ drug benefit put Class Members’ health and
privacy at risk and reduces or effectively eliminates their
drug benefit by requiring subscribers prescribed
HIV/AIDS Medications to obtain those medications solely
under the Program, particularly without the option to optout or receiving clear (or any) notice of the ability to do so.
This reduction or elimination of the drug benefit is
effectuated by way of the CVS Caremark Defendants’
control over enrollees drug benefits and what drugs must
use CSP and the Program, control over whether
community pharmacies are designated as “out-ofnetwork,” control over cost-sharing issues and control
over CVS pharmacies that allow Defendants to establish
CVS pharmacies as drop shipment locations and limit or

103
effectively bar in-person consultations, advice, and
monitoring by pharmacists knowledgeable about
HIV/AIDS Medications.
(c) Discriminates against these patients.
Programs that do not provide meaningful access to
coverage for patients with HIV/AIDS from pharmacists
of their choice are prohibited as discriminatory. The need
for this prohibition is clear. Allowing providers to provide
ineffective benefits for patients with a pre-existing
condition through inconvenient and ineffective
requirements such as are part of the Program that put the
patients’ health and privacy at risk undermines one of the
central tenets of the ACA: guaranteeing access to care
for those with pre-existing conditions. CVS Caremark’s
requirement that such patients receive their HIV/AIDS
Medications under the Program rather than the innetwork community pharmacy and specialty pharmacist
of their choice, is a coverage rule based on the patients’
health status and/or medical condition.
148. Furthermore, as set forth above, CVS
Caremark has violated federal regulations promulgated
pursuant to the ACA, which also results in liability under
this Cause of Action.
149. Plaintiffs fall within the zone of protected
persons under the ACA and thus have standing to seek all
appropriate relief available from Defendants under this
statute.
150. Plaintiffs request equitable and monetary
relief to the fullest extent permissible under the ACA,
attorneys’ fees, costs, and such other and further
appropriate relief against the CVS Caremark Defendants
as may be available under this claim.

104
SECOND CAUSE OF ACTION
Violation of Americans with Disabilities Act
(42 .S.C. § 12101, et seq.)
151. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein. This
claim is brought against the CVS Caremark Defendants.
152. The Americans with Disabilities Act, 42
U.S.C. section 12182, subdivision (a), provides:
No individual shall be discriminated against
on the basis of disability in the full and
equal enjoyment of the goods, services,
facilities, privileges, advantages, or
accommodations of any place of public
accommodation by any person who owns,
leases (or leases to), or operates a place of
public accommodation.
(Emphasis added.)
153. By implementing the Program, which has
or will materially reduce or effectively eliminate their
prescription drug benefit by requiring those subscribers
subject to the Program and who are prescribed
HIV/AIDS Medications to obtain those medications solely
under the Program without an option to opt-out or clear
notice thereof, and effectively terminate community
pharmacies and pharmacists from Plaintiffs’ and Class
Members’ network of services, the CVS Caremark
Defendants have specifically and intentionally targeted
individuals on the basis of a particular disability and
affirmatively discriminated against such persons on the
basis of their disability.
154.

As the Program only applies to Class

105
Members who are prescribed certain specialty
medications, the Program is directed at seriously ill
enrollees with “disabilities” protected by the ADA.
155. Under the ADA, the term “disability”
means, with respect to an individual: “(A) a physical or
mental impairment that substantially limits one or more
major life activities of such individual; (B) a record of such
an impairment; or (C) being regarded as having such an
impairment (as described in paragraph (3)).” (42 U.S.C.
§ 12102(1)(A)-(C).) “[M]ajor life activities include, but are
not limited to, caring for oneself, performing manual
tasks, seeing, hearing, eating, sleeping, walking, standing,
lifting, bending, speaking, breathing, learning, reading,
concentrating, thinking, communicating, and working.”
(42 U.S.C. § 12102(2)(A).) A “major life activity also
includes the operation of a major bodily function,
including but not limited to, functions of the immune
system, normal cell growth, digestive, bowel, bladder,
neurological, brain, respiratory, circulatory, endocrine,
and reproductive functions.” (42 U.S.C. § 12102(2)(B).)
156. The U.S. Supreme Court has recognized
HIV/AIDS as a “disability” subject to the ADA. (Bragdon
v. Abbott, 524 U.S. 624, 655 (1998).)
157. A pharmacy is a “place of public
accommodation” recognized by the ADA. (42 U.S.C.
§ 12181(7)(F).)
158. Courts have found that a defendant
“operates a place of public accommodation” if that
defendant exerts “control” over a place of public
accommodation; for example, as a result of a financial or
contractual relationship between the defendant and the
place of public accommodation.

106
159. The
CVS
Caremark
Defendants’
discriminatory actions have denied or will deny Plaintiffs
and members of the Class full and equal enjoyment of the
benefits, services, facilities, privileges, advantages, and
accommodations available in terms of being able to access
the pharmacy or pharmacist of their choice. The CVS
Caremark Defendants’ discriminatory actions requiring
those subscribers subject to the Program and prescribed
HIV/AIDS Medications to obtain those medications solely
under the Program’s limitations, and without an option to
opt-out or clear notice of that option, effectively bars inperson consultations, advice, and monitoring by
pharmacists
knowledgeable
about
HIV/AIDS
Medications and Class Members’ conditions. It also
violates Class Members’ right to privacy and/or costs
them more money in the form of unrecognized or
unapplied rebates or discounts. The CVS Caremark
Defendants also control Class Members’ access to
community pharmacies and pharmacists of their choice by
deciding that filling their HIV/AIDS Medication
prescriptions there would be “out-of-network” under the
terms of the Program.
160. This reduction or effective elimination of
the prescription drug benefit is also effectuated by way of
CVS Caremark Defendants’ direct control over their
subsidiary CVS pharmacies that allow CVS Caremark
Defendants to establish CVS pharmacies only as drop
shipment locations or specialty pharmacies and effectively
bar in-person consultations, advice, and monitoring by
pharmacists
knowledgeable
about
HIV/AIDS
Medications.
161. Furthermore, CVS Caremark Defendants’
financial arrangements with their subsidiaries and

107
controlling the payments they make to the specialty
community pharmacies, and CVS Caremark Defendants’
contractual relationships with those pharmacies—
specifically, changes to the “in-network” status of those
pharmacies as to the specialty medications in question by
making these pharmacies “out-of-network” for purposes
of those medications—effectively bar Class Members’
access to community pharmacies that have provided
HIV/AIDS Medications for years.
These financial
arrangements and contractual changes have made, or will
make, HIV/AIDS Medications unaffordable and therefore
unavailable at those pharmacies where specialty
community pharmacists provide life-saving advice and
counseling that Plaintiffs and Class Members have come
to rely on. Therefore, Plaintiffs and Class Members are
subject to discriminatory treatment based on their
disability that threatens their health and their privacy.
162. In using their direct and on-going control
over their subsidiary CVS pharmacies, as well as financial
incentives and contractual control over plans and
community pharmacies to discriminatorily deny Plaintiffs
and Class Members’ access to life-saving counseling and
appropriate access to life-sustaining medications, the CVS
Caremark Defendants have created a nexus between the
prescription drug benefit, the HIV/AIDS Medications at
issue, and access to life-sustaining services provided at
community pharmacies. Therefore, there is a nexus and
connection between a place of public accommodation and
the disparity in benefits, services, facilities, privileges,
advantages, and accommodations that the CVS Caremark
Defendants make available to Class Members, compared
to other enrollees who are not currently prescribed these
specific specialty medications or are not otherwise subject

108
to the Program.
163. Due to the CVS Caremark Defendants’
significant direct and indirect control over their
subsidiary CVS pharmacies and Class Members’ access to
their preferred community pharmacies, exercised
through
contractual
agreements
and
financial
arrangements and by making these specialty medications
an “out-of-network” event at non-CVS community
pharmacies, the CVS Caremark Defendants effectively
deny access to a place of public accommodation to Class
Members for their life-sustaining medications.
164. Plaintiffs proceeding under the “nexus”
theory need not plead denial of physical access to a place
of public accommodation. Intangible barriers equally
restrict a disabled person’s ability to enjoy goods, services
and privileges.
These intangible barriers include
effectively limiting and/or denying Class Members’ access
to community pharmacies providing in-person
consultations, advice, and monitoring by pharmacists
knowledgeable about HIV/AIDS Medications in a setting
that protects their right to privacy and/or not providing
clear notice of their ability to opt-out of the Program. The
intangible barriers erected by the CVS Caremark
Defendants—which also effectively deny Class Members’
access to non-CVS specialty pharmacies and
pharmacists—is further implemented through CVS
Caremark’s contractual control over access to those nonCVS pharmacies and pharmacists, which results in those
places of public accommodation being “out-of-network”
for purposes of HIV/AIDS Medications.
165. Under 42 U.S.C. section 12188 of the ADA,
any person who is subjected to discrimination on the basis
of disability, or who has reasonable grounds for believing

109
that such person is about to be subjected
discrimination, may seek appropriate remedies.

to

166. Plaintiffs and Class Members have and will
continue to be harmed by Defendants’ actions through the
loss of access to community pharmacies and pharmacists
of their choice.
167. The CVS Caremark Defendants’ conduct
either has or will continue to cause harm to Plaintiffs and
all other Class Members, and is a substantial factor in
causing such harm.
168. Plaintiffs seek an order enjoining the CVS
Caremark Defendants from continuing to engage in such
conduct.
169. As a proximate result of the CVS Caremark
Defendants’ conduct, Plaintiffs were forced to seek legal
representation. Plaintiffs also seek appropriate monetary
relief to the extent available, attorneys’ fees and costs, and
all other additional appropriate relief as may be available
under this cause of action.
THIRD CAUSE OF ACTION
Violation of Unruh Civil Rights Act
(Cal. Civ. Code § 51, et seq.)
170. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein. This
claim is brought on behalf of members of the Class who
reside in California or received their prescriptions under
the Program from shipments originating in California.
This claim is brought against the CVS Caremark
Defendants.
171. The Unruh Civil Rights Act, California Civil
Code section 51(b), provides: All persons within the

110
jurisdiction of this state are free and equal, and no matter
what their sex, race, color, religion, ancestry, national
origin, disability, medical condition, genetic information,
marital status, or sexual orientation are entitled to the full
and equal accommodations, advantages, facilities,
privileges, or services in all business establishments of
every kind whatsoever.
172. For all the reasons set forth above, the CVS
Caremark Defendants’ actions have denied Plaintiffs and
members of the Class full and equal benefits under their
health care plans’ prescription drug benefit as compared
to persons not prescribed HIV/AIDS Medications.
Defendants also discriminated or made a distinction that
denied Plaintiffs and Class Members full benefits under
their health care plans’ prescription drug benefit.
173. Defendants’
actions
constitute
discrimination on the basis of medical condition and
disability as set forth herein.
174. Defendants’ Program results in arbitrary
discrimination. While Defendants may assert that
requiring patients to fill prescriptions for certain
expensive drugs under the Program is factually and
rationally related to providing cost effective healthcare, in
fact an increased risk of detrimental health and loss of
personal privacy associated with such limited services
may actually increase costs and personal hardship over
time.
175. Furthermore, community standards in
California and elsewhere do not comport with companies
subjecting enrollees with or subject to contracting
HIV/AIDS to different and riskier means of obtaining lifesustaining medications, and thus does not implicate a

111
compelling societal interest.
176. The Program also reinforces harmful
stereotypes by excluding Class Members from the normal
societal means of acquiring prescription medications,
including requiring them to utilize “separate and unequal”
means to fill their prescriptions, as compared to
consumers only receiving non-specialty medications.
177. Such arbitrary discrimination has the effect
of undermining Class Members’ health care plans’
prescription drug benefit and terminating their continued
community pharmacy access, and will deny them equal
and full use and access of these community pharmacy
facilities and pharmacists.
178. By implementing the Program, which
greatly reduces Class Members’ health plan drug benefits
and effectively terminates the specialty community
pharmacists from Plaintiffs’ and Class Members’ network
of service for their specialty medications, the CVS
Caremark Defendants have targeted individuals that
have a particular chronic disease and affirmatively made
a distinction or discrimination against such persons on the
basis of their specific chronic disease. Such conduct is
prohibited by the Unruh Civil Rights Act, California Civil
Code section 51, et seq.
179. Plaintiffs’ medical conditions and the need
to procure expensive specialty medications to treat that
chronic condition was a motivating reason for the CVS
Caremark Defendants’ conduct in requiring or
threatening to require them to access such medications
solely through the Program.
180. Plaintiffs and Class Members have been
and will continue to be harmed by the CVS Caremark

112
Defendants’ actions: (i) as a result of the time they have
expended in attempting to navigate the bureaucratic
requirements of the Program and unsuccessful attempts
to opt-out of the Program; (ii) the loss of access to their
community pharmacy, community pharmacist and
personal consultations; (iii) interruptions in their
continuity of care; and (iv) losses and expenditures of
resources as set forth above.
181. The CVS Caremark Defendants’ conduct
has or will cause harm to Plaintiffs and Class Members,
and is a substantial factor in causing such harm.
182. To the extent such violations of the Unruh
Civil Rights Act are based on and arise out of the legal
duties imposed on the CVS Caremark Defendants under
federal law, including the anti-discrimination provisions of
the ADA and ACA as set forth above, that are
independent of any duties arising under ERISA, this
cause of action is properly asserted on behalf of all Class
Members who reside in California.
183. As a proximate result of the CVS Caremark
Defendants’ conduct, Plaintiffs and Class Members are
entitled to recover actual, compensatory and statutory
damages in an amount to be proven at trial, as well as
attorneys’ fees and costs, as permitted under the Unruh
Civil Rights Act and to the extent permitted by law.
FOURTH CAUSE OF ACTION
Violation of California Business & Professions
Code Section 17200, et seq.
184. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein. This
claim is brought on behalf of members of the Class who

113
reside in California or received shipments under the
Program in California. This claim is brought against the
CVS Caremark Defendants.
185. California Business & Professions Code
section 17200, et seq., prohibits acts of “unfair
competition,” which is defined by California Business &
Professions Code section 17200 as including “any
unlawful, unfair or fraudulent business act or practice.”
186. The acts and practices as described above
violate California Business & Professions Code section
17200’s prohibition against engaging in “unlawful”
business acts or practices, by, inter alia, violating the
above-stated provisions of federal and state law including
the ACA, ADA, 45 C.F.R. 156.122(e), the Unruh Act, and
the other laws and regulations as set forth in detail above
(except the provisions of federal law relating to ERISA).
To the extent such claims apply the same standards as the
above cited federal laws, these claims are properly
asserted by all Class Members who can assert such
claims.
187. The CVS Caremark Defendants’ conduct
does not benefit consumers or competition. Indeed, the
harm to consumers and competition is substantial for the
reasons set forth above.
188. Plaintiffs and Class Members could not
have reasonably avoided the injury each of them suffered
based on implementation of the Program, which injury is
substantial, even though Plaintiffs have attempted to do
so.
189. The gravity of the consequences of the CVS
Caremark Defendants’ conduct as described above
outweighs any justification, motive or reason therefor,

114
and is immoral, unethical, and unscrupulous, offends
established public policy that is tethered to legislatively
declared policies as set forth in the laws detailed above, or
is substantially injurious to Plaintiffs and other members
of the Class.
190. To the extent Class Members have a right
to opt-out of the Program but have not been adequately
informed of that right and/or been told it does not exist
when under the law it must, the CVS Caremark
Defendants’ conduct of not advising them of this right
would have a tendency or likelihood to mislead consumers
to reasonably believe such an option does not exist when
in reality it does.
191. Plaintiffs have been injured in fact and
suffered a loss of money or property as a result of the CVS
Caremark Defendants’ unlawful business acts and
practices by, inter alia, (i) spending hours dealing with
these issues; (ii) having benefits in which they have or had
a vested interest materially reduced or eliminated;
(iii) either already paying or being told they will need to
pay increased amounts for such specialty medications,
even if covered, if they continue to obtain such
medications from the community pharmacy of their
choice; and (iv) even if they obtain these medications
through the Program, their loss of discounts, rebates,
loyalty programs or other monies or programs that if
accepted by the CVS Caremark Defendants would
otherwise reduce their out-of-pocket costs.
192. As a result of Defendants’ violations of the
UCL, Plaintiffs and Class Members are, to the extent
permitted by law and that such relief does not conflict with
the other causes of action set forth herein, entitled to
equitable relief in the form of full restitution and

115
disgorgement of the unjust enrichment Defendants
derived from these illegal business acts and practices.
193. Plaintiffs also seek an order enjoining
Defendants from continuing these illegal business
practices and from engaging in such conduct, and
payment of attorneys’ fees and costs pursuant to, inter
alia, California Civil Code. section 1021.5.
FIFTH CAUSE OF ACTION
Claim for Benefits Due Under the Plans Governed by
ERISA (29 .S.C. § 1132(a)(1)(B))
194. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein.
195. Class Members who are or were enrolled in
any health care plan that is an employee welfare benefit
plan within the meaning of 29 U.S.C. section 1002(1)(A)
where the prescription drug benefit is administered by
CVS Caremark, and that is otherwise subject to any
provision of Title I of the Employee Retirement Income
Security Act of 1974, 29 U.S.C. section 1001, et seq., are
subject to this Count.
196. Defendants violated their legal obligations
under ERISA when they engaged in the conduct
described in this Complaint. These violations include CVS
Caremark’s implementation of a mandatory program
targeting HIV and AIDS patients, denial of the right to
opt-out of the Program or provide clear notice of that
right, the revocation of their valuable benefit and right to
use non-CVS pharmacies on an in-network basis, and the
denial of financial discounts or rebates or shifting the
financial responsibility of lost or stolen shipments to them,
and the Employer Defendants’ offering and/or entering

116
into agreements with CVS that did not provide an ability
to opt-out of the Program, at least according to CVS
Caremark, all causing a reduction in or elimination of
benefits without a change in actual coverage, as well as the
failure to provide clear notice thereof.
197. Defendants’ unlawful change of coverage
based apparently on internal guidelines and policies
requiring Class Members to switch from using a
community pharmacy to the Program for obtaining their
specialty medications, and the designation of the
community pharmacy as now being “out-of-network,”
caused a reduction in or elimination of Plaintiffs’ and
Class Members’ benefits. Defendants’ changes to Class
Members’ health plans’ prescription drug benefit puts
Class Members’ health and privacy at risk and reduces or
effectively eliminates their drug benefit by requiring
Class Members to obtain those medications solely under
the Program without an option to opt-out of the Program,
or clear notice thereof. This reduction or elimination of
the drug benefit is effectuated by way of, inter alia,
Defendants’ control over which CVS pharmacies allow
Class Members to fill their prescriptions directly, and
which CVS pharmacies act only as drop shipment
locations and thus effectively bar in-person consultations,
advice, and monitoring by pharmacists knowledgeable
about HIV/AIDS Medications.
198. CVS Caremark caused a reduction in or
elimination of Plaintiffs’ and Class Members’ benefits by
exclusively requiring their use of CSP to acquire these
specialty medications, resulting in the violation of the laws
and regulations set forth in this Complaint. Accordingly,
CVS Caremark’s requirement that Plaintiffs and the
Class use only CVS Caremark’s subsidiary—CSP—

117
without the right to opt-out of the Program, or provide
clear notice thereof, violates the laws set forth in this
Complaint and unlawfully reduces or eliminates their
benefits in a manner that is inconsistent with their stated
coverage.
199. On March 30, 2016, JOHN DOE ONE
submitted a formal appeal to both his employer and CVS
Caremark, and later a second level appeal, requesting to
opt-out of the Program. JOHN DOE TWO submitted
appeals to his husband’s former employer and CVS
Caremark requesting to opt-out of the Program on
numerous occasions (January 11, 2016, February 28, 2016,
April 1, 2016, and May 11, 2016). On March 24, 2016,
JOHN DOE THREE submitted an appeal to both his
employer and CVS Caremark requesting to opt-out of the
Program, for both himself and his spouse JOHN DOE
FOUR. On or about March 30, 2018, JOHN DOE FIVE,
pursuant to the terms of his employer plan, submitted a
written request to be exempted from the Program. CVS
denied his request for an exemption. On or about May 30,
2018, he filed a written appeal of this denial, which was
further denied by CVS on or about June 5, 2018. All
Plaintiffs followed the appeal and grievance requirements
provided for in their plan documents, and all were denied.
None of the Plaintiffs have been allowed to opt-out of the
Program or received notice of any right to do so.
200. All further appeals regarding the Program
for Class Members are futile because CVS Caremark has
implemented the Program across-the-board and has
consistently denied requests to opt-out of the Program or
failed to provide clear notice of their right to do so, as
applicable.
201.

Plaintiffs seek the benefit of continued

118
access to community pharmacies as an “in-network”
benefit due under their employee welfare benefit plans
and to enjoin the continued implementation of the
Program in its current form.
202. In addition, Plaintiffs request appropriate
injunctive relief, equitable estoppel, and equitable
monetary relief to prevent Defendants’ unjust enrichment
to the extent permitted under 42 U.S.C. section 1132(a)(3),
attorneys’ fees, costs, and such other and further
appropriate relief against CVS as may be available under
this claim.
SIXTH CAUSE OF ACTION
Claim for Breach of Fiduciary Duties Under ERISA
(29 .S.C. § 1132(a)(3))
203. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein.
204. Class Members who are or were enrolled in
any health care plan that is an employee welfare benefit
plan within the meaning of 29 U.S.C. section 1002(1)(A)
where the prescription drug benefit is administered by
CVS Caremark and that is otherwise subject to any
provision of Title I of the Employee Retirement Income
Security Act of 1974, 29 U.S.C. section 1001, et seq. are
subject to this Count.
205. CVS Caremark serves as a fiduciary under
29 U.S.C. section 1002(21)(A) for numerous plans covered
by ERISA providing benefits to members of the Class
because CVS Caremark exercises significant if not sole
discretionary authority with respect to the management
of the prescription drug benefit of these plans. CVS
Caremark: (i) is given the discretion to interpret benefits,

119
terms, conditions, limitations, and make factual
determinations related to the plan’s prescription drug
benefits, which typically includes deciding whether a
particular specialty medication is to be subject to the
Program or not; (ii) provides financial inducements to plan
sponsors incentivizing use of the Program; (iii) requires
that mail order shipments be solely fulfilled by its own
subsidiary CSP; (iv) decides whether or not to
consistently accept discounts and rebates, and whether to
shift the financial responsibility of lost or stolen shipments
to Plaintiffs and Class Members; and (iv) establishes its
pharmacies as drop shipment locations. How such
medications are delivered and where, the limited options
provided to Plaintiffs and Class Members to obtain their
medications, the mix ups and delays occasioned by CVS’s
flawed delivery process, the decision not to consistently
accept rebates or discounts, the decision to use CVS
pharmacies only as drop shipment locations as compared
to providing full services and consultation to such
enrollees, and the decision to offer an opt-out and non-optout option to enrollees without financial incentive are all
matters within CVS’s discretion and control. As such,
CVS Caremark owed the plans’ participants and
beneficiaries a duty to act with undivided loyalty and
prudence in managing and administering the prescription
drug aspect of their health plans. AMTRAK is a selffunded plan sponsor and thus also act as a fiduciary to its
enrollees that are members of the Class as defined above.
206. AMTRAK, Lowe’s, and Time Warner are
fiduciaries in that they exercise discretion over whether
and which pharmacy benefits manager to select for
administering pharmacy benefits for the health plans in
which their employees are enrolled.

120
207. CVS Caremark is also a co-fiduciary of each
of AMTRAK, Lowe’s, and Time Warner, and each of
AMTRAK, Lowe’s, and Time Warner is in turn a cofidcuciary of CVS, as described above.
208. Defendants breached their duties of loyalty
and prudence under ERISA by engaging in the conduct
described in this Complaint, specifically through their
conduct of discrimination and self-dealing. Among other
things, Defendants breached their duty of loyalty and
prudence by failing to act in accordance with the ACA and
the ADA, by implementing or proposing to continue to
implement a Program that does not satisfy minimum
standards of care, by engaging in financial self-dealing,
and by not permitting enrollees to opt-out of the Program
and/or giving them no or insufficient notice of their right
to do so.
209. AMTRAK, Lowe’s, and Time Warner are
each also liable as co-fiduciaries for CVS’s breaches, as
described above, and CVS is likewise liable as a cofiduciary for each of AMTRAK’s, Lowe’s, and Time
Warner’s breaches. AMTRAK, Lowe’s, and Time Warner
each knowingly participated in CVS’s breach of its
fiduciary duties through its agreement with CVS
subjecting members of its health plan to the Program and
allowing CVS to determine the formulary for specialty
medications. Further, having expressly agreed to subject
its members to the Program, each knew of CVS’s breach
of its fiduciary duties and failed to make reasonable
efforts to remedy the breach. Each also failed to
prudently discharge its fiduciary duties in choosing to
subject its members to the Program, which failure
enabled CVS, also a fiduciary, to in turn breach its
fiduciary duties. CVS participated in subjecting members

121
of those employers’ health plans to the Program and,
therefore, also had knowledge of the breach by each of
AMTRAK, Lowe’s, and Time Warner and failed to make
reasonable efforts to remedy the breach.
210. Through CVS’s development of the
formulary and by requiring Plaintiffs and the Class to use
the Program and only CSP in order to obtain their
pharmacy benefits, CVS Caremark is not acting solely in
the interest of participants and beneficiaries, causing a
significant decrease or elimination in their prescription
drug benefits.
CVS Caremark has decreased or
eliminated plan benefits in order to increase their own
profits by requiring enrollees to only use CSP, CVS
Caremark’s wholly-owned subsidiary, to access their lifesaving HIV/AIDS Medications and/or not providing clear
notice of their ability to opt-out of the Program.
211. CVS Caremark has put its own interests
before the Class Members by inducing plan sponsors to
enroll Class Members in prescription drug benefit plans
subject to the Program.
212. CVS Caremark has further breached its
duties by failing to meet the requisite standard of
prudence under 29 U.S.C. section 1104, which requires
CVS Caremark to discharge their duties “with the care,
skill, prudence, and diligence under the circumstances
then prevailing that a prudent man acting in a like
capacity and familiar with such matters would use in the
conduct of an enterprise of a like character and with like
aims.” CVS Caremark is not new to the health insurance
industry and thus is acutely aware of its obligations as a
health care entity, yet it has engaged in conduct that risks
violation of its participants’ and beneficiaries’ health and
privacy rights, and acted in direct contravention of

122
ERISA’s prudent person standard. AMTRAK operates
as a self-funded plan sponsor and thus also act as a
fiduciary to its enrollees that are members of the Class as
defined above.
213. Through these actions, Defendants
decreased or eliminated Plaintiffs’ and Class Members’
plan benefits. As a result of this wrongful conduct, the
Class has or will suffer a reduction in the quality and
continuity of care they receive, and an overall decrease in
or elimination of benefits for the plans they pay for or are
provided by their employers.
214. This wrongful conduct has consequently
caused Plaintiffs and the Class to suffer injuries, in an
amount to be determined at trial.
215. Plaintiffs are permitted to bring a claim for
breach of fiduciary duty under 29 U.S.C. section
1132(a)(3). Plaintiffs seek, inter alia, the benefit of
continued access to community pharmacies as an “innetwork” benefit under their plans on the same terms as
non-specialty medications and to enjoin the continued
implementation of the Program.
216. In addition, Plaintiffs request appropriate
injunctive relief, equitable estoppel, and equitable
monetary relief to prevent Defendants’ unjust enrichment
to the extent permitted under 42 U.S.C. section 1132(a)(3),
attorneys’ fees, costs, and such other and further
appropriate relief against Defendants as may be available
under this claim.
SEVENTH CAUSE OF ACTION
Claim for Failure to Provide Full and Fair Review
Required by ERISA (29 .S.C. § 1132(a)(3))

123
217. Plaintiffs
incorporate
by
reference
paragraphs 1-139 as though fully set forth herein.
218. Class Members who are or were enrolled in
any health care plan that is an employee welfare benefit
plan within the meaning of 29 U.S.C. section 1002(1)(A)
where the prescription drug benefit is administered by
CVS Caremark and that is otherwise subject to any
provision of Title I of the Employee Retirement Income
Security Act of 1974, 29 U.S.C. section 1001, et seq., are
subject to this Count.
219. 29 U.S.C. section 1133 of ERISA requires
that every employee welfare benefit plan “(1) provide
adequate notice in writing to any participant or
beneficiary whose claim for benefits under the plan has
been denied, setting forth the specific reasons for such
denial, written in a manner calculated to be understood by
the participant,” and “(2) afford a reasonable opportunity
to any participant whose claim for benefits has been
denied for a full and fair review by the appropriate named
fiduciary of the decision denying the claim.”
220. On March 30, 2016, JOHN DOE ONE
submitted a formal appeal to both his employer and CVS
Caremark, and later a second level appeal, requesting to
opt-out of the Program. JOHN DOE TWO submitted
appeals to his husband’s employer and CVS Caremark
requesting to opt-out of the Program on numerous
occasions (January 11, 2016, February 28, 2016, April 1,
2016, and May 11, 2016). On March 24, 2016, JOHN DOE
THREE submitted an appeal to both his employer and
CVS Caremark requesting to opt-out of the Program for
himself and his husband. On or about March 30, 2018,
JOHN DOE FIVE, pursuant to the terms of his employer
plan, submitted a written request to be exempted from the

124
Program. CVS denied his request for an exemption. On
or about May 30, 2018, he filed a written appeal of this
denial, which was further denied by CVS on or about June
5, 2018. All Plaintiffs followed the appeal and grievance
requirements provided for in their plan documents, and
were denied. None of the Plaintiffs have been allowed to
opt-out of the Program.
221. CVS
Caremark’s
across-the-board
implementation of the Program and its blanket denial of
the right to opt-out of the Program or provide clear notice
thereof are evidence of the absence of full and fair review
under the Program.
222. CVS Caremark functions as a fiduciary for
numerous plans because CVS Caremark exercises
significant if not sole discretionary authority with respect
to management of the prescription drug benefit of the
plans as alleged above. (29 U.S.C. § 1002(21)(A).). CVS
Caremark has also effectively functioned jointly as the
“Plan Administrator” within the meaning of such term
under ERISA for purposes of the specialty medications
here at issue, as CVS Caremark decided: (i) to implement
the Program; (ii) whether a particular specialty
medication is subject to the Program; (iii) to provide
financial inducements to plan sponsors to enroll
consumers in prescription drug benefit plans subject to
the Program; (iv) whether to provide employers the
ability to let enrollees opt-out of the Program; (v) whether
to provide clear notice thereof, (vi) to designate CVS
pharmacies as merely drop shipment facilities; and (vii) to
permit mail order deliveries to be solely fulfilled by its
own subsidiary CSP.
223. Although CVS Caremark was obligated to
do so, it failed to provide a “full and fair review” of denied

125
claims pursuant to 29 U.S.C. section 1133 and the
regulations promulgated thereunder by consistently
refusing to consider requests to opt-out or in many
circumstances denying formal appeals altogether.
224. CVS Caremark has failed to provide a
reasonable procedure for opting-out of the Program
and/or failed to provide clear notice and information to
Class Members regarding any opt-out right or any appeal
of adverse opt-out determinations.
225. As a result, CVS Caremark failed to provide
a “full and fair review,” and failed to make necessary
disclosures to participants and beneficiaries regarding
any opt-out process from the Program or the ability to
appeal any adverse determination.
226. Plaintiffs and Class Members have been
harmed by CVS Caremark’s failure to provide a “full and
fair review” of appeals under 29 U.S.C. section 1133, and
by CVS Caremark’s failure to properly disclose relevant
information in violation of ERISA.
227. .
228. Plaintiffs are entitled to assert a claim
under 29 U.S.C. section 1132(a)(3) for Defendants’ failure
to comply with the above requirements. Plaintiffs seek
the aforementioned benefit of continued access to
community pharmacies as an “in-network” benefit due
under their employee welfare benefit plans and to enjoin
the continued or proposed continued implementation of
the Program.
229. In addition, Plaintiffs request appropriate
injunctive relief, equitable estoppel, and equitable
monetary relief to prevent Defendants’ unjust enrichment

126
to the extent permitted under 42 U.S.C. section 1132(a)(3),
attorneys’ fees, costs, and such other and further
appropriate relief against CVS as may be available under
this claim.
EIGHTH CAUSE OF ACTION
Declaratory Relief
230. Plaintiffs incorporate by reference the
preceding paragraphs as though fully set forth herein.
231. An actual controversy over which this Court
has jurisdiction now exists between Plaintiffs, members of
the Class and Defendants concerning their respective
rights, duties and obligations under the various health
care prescription drug benefit agreements as set forth
herein.
232. Plaintiffs are entitled to a declaration of
rights regarding their rights and obligations under such
agreements, including whether: (i) Defendants may
continue to implement the Program under its current
terms; and (ii) whether Class Members have a right to
opt-out of the Program and to receive clear notice of that
right. Such declarations may be had before there has
been any breach of such obligation in respect to which
such declaration is sought. (See 28 U.S.C. § 2201, et seq.;
Cal. Civ. Proc. § 1060(a).)
233. Plaintiffs and Class Members may be
without adequate remedy at law, rendering declaratory
relief appropriate in that:
(a) relief is necessary to inform the parties of
their rights and obligations under the agreements
referenced herein;
(b) damages may not adequately compensate

127
Class Members for the injuries suffered, nor may other
claims permit such relief;
(c) the relief sought herein in terms of ceasing
such practices may not be fully accomplished by awarding
damages; and
(d) if the conduct complained of is not enjoined,
harm will result to Class Members and the general public
because Defendants’ wrongful conduct is both threatened
as to those Class Members who have yet to be fully
subjected to the Program and/or is continuing as to those
Class Members still subjected to the Program and who
desire not to participate in the Program and/or are
currently being denied or not adequately informed of any
ability to opt-out of the Program.
234. A judicial declaration is therefore necessary
and appropriate at this time and under these
circumstances so the parties may ascertain their
respective rights and duties.
235. Plaintiffs request a judicial determination
and declaration of the rights of Class Members, and the
corresponding responsibilities of Defendants. Plaintiffs
also request an order declaring Defendants are obligated
to not continue the Program in its current form, must
provide Plaintiffs and Class Members the opportunity to
opt-out of the Program, and pay over all funds Defendants
wrongfully acquired either directly or indirectly as a
result of the illegal conduct by which Defendants were
unjustly enriched in terms of reimbursements or payment
of monies that would not have been paid to or retained by
Class Members absent such illegal conduct.

128
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs, individually and on
behalf of the Class, pray for relief as follows as applicable
for the particular cause of action:
1.
An Order certifying this action to proceed
on behalf of the Class, including any appropriate subclass, and appointing Plaintiffs and the counsel listed
below to represent the Class;
2.
An Order awarding Plaintiffs and the Class
Members entitled to such relief such equitable monetary
relief as the Court deems proper;
3.
An Order enjoining Defendants from
implementing or continuing the Program in its current
form, or such other appropriate injunctive relief;
4.
An Order providing a declaration of rights
of the parties as set forth above;
5.
An Order awarding Plaintiffs and the Class
Members who might be entitled to such relief actual,
compensatory, and/or statutory damages to the extent
permitted by the above claims;
6.
An Order awarding Plaintiffs’ attorneys’
fees, litigation expenses, expert witness fees and other
costs pursuant to, inter alia, California Civil Code section
1021.5 and the federal and state statutory causes of action
set forth above that permit such an award;
7.
An Order awarding pre-judgment and postjudgment interest on the above amounts; and
8.
An Order awarding such other and further
relief as may be just and proper.

129
JURY DEMAND
Plaintiffs demand a trial by jury on all issues and
causes of action so triable.
DATED: June 18, 2018
WHATLEY KALLAS, LLP
/s/ Alan M Mansfield
Alan M. Mansfield (Bar No. 125998)
(Of Counsel)
amansfield@whatleykallas.com
16970 W. Bernardo Dr., Suite 400
San Diego, CA 92127
Tel.: (858) 674-6641
Fax: (855) 274-1888
Joe R. Whatley, Jr.
(admitted pro hac vice)
jwhatley@whatleykallas.com
Edith M. Kallas
(admitted pro hac vice)
ekallas@whatleykallas.com
C. Nicholas Dorman
(admitted pro hac vice)
ndorman@wahtleykallas.com
1180 Avenue of the Americas,
20th Fl.
New York, NY 10036
Tel: (212) 447-7060
Fax: (800) 922-4851
CONSUMER WATCHDOG
Jerry Flanagan (SBN: 271272)
jerry@consumerwatchdog.org
Benjamin Powell (SBN: 311624)

130
ben@consumerwatchdog.org
6330 San Vincente Blvd.,
Suite 250
Los Angeles, CA 90048
Tel: (310) 392-0522
Attorneys for Plaintiffs

